<html>
<title> - FISCAL YEAR 2006 DRUG BUDGET</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]




 
                      FISCAL YEAR 2006 DRUG BUDGET

=======================================================================

                                HEARING

                               before the

                   SUBCOMMITTEE ON CRIMINAL JUSTICE,
                    DRUG POLICY, AND HUMAN RESOURCES

                                 of the

                              COMMITTEE ON
                           GOVERNMENT REFORM

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 10, 2005

                               __________

                           Serial No. 109-15

                               __________

       Printed for the use of the Committee on Government Reform


  Available via the World Wide Web: http://www.gpo.gov/congress/house
                      http://www.house.gov/reform


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
20-878                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                     COMMITTEE ON GOVERNMENT REFORM

                     TOM DAVIS, Virginia, Chairman
CHRISTOPHER SHAYS, Connecticut       HENRY A. WAXMAN, California
DAN BURTON, Indiana                  TOM LANTOS, California
ILEANA ROS-LEHTINEN, Florida         MAJOR R. OWENS, New York
JOHN M. McHUGH, New York             EDOLPHUS TOWNS, New York
JOHN L. MICA, Florida                PAUL E. KANJORSKI, Pennsylvania
GIL GUTKNECHT, Minnesota             CAROLYN B. MALONEY, New York
MARK E. SOUDER, Indiana              ELIJAH E. CUMMINGS, Maryland
STEVEN C. LaTOURETTE, Ohio           DENNIS J. KUCINICH, Ohio
TODD RUSSELL PLATTS, Pennsylvania    DANNY K. DAVIS, Illinois
CHRIS CANNON, Utah                   WM. LACY CLAY, Missouri
JOHN J. DUNCAN, Jr., Tennessee       DIANE E. WATSON, California
CANDICE S. MILLER, Michigan          STEPHEN F. LYNCH, Massachusetts
MICHAEL R. TURNER, Ohio              CHRIS VAN HOLLEN, Maryland
DARRELL E. ISSA, California          LINDA T. SANCHEZ, California
GINNY BROWN-WAITE, Florida           C.A. DUTCH RUPPERSBERGER, Maryland
JON C. PORTER, Nevada                BRIAN HIGGINS, New York
KENNY MARCHANT, Texas                ELEANOR HOLMES NORTON, District of 
LYNN A. WESTMORELAND, Georgia            Columbia
PATRICK T. McHENRY, North Carolina               ------
CHARLES W. DENT, Pennsylvania        BERNARD SANDERS, Vermont 
VIRGINIA FOXX, North Carolina            (Independent)
------ ------

                    Melissa Wojciak, Staff Director
       David Marin, Deputy Staff Director/Communications Director
               Rob Borden, Parliamentarian/Senior Counsel
                       Teresa Austin, Chief Clerk
          Phil Barnett, Minority Chief of Staff/Chief Counsel

   Subcommittee on Criminal Justice, Drug Policy, and Human Resources

                   MARK E. SOUDER, Indiana, Chairman
PATRICK T. McHenry, North Carolina   ELIJAH E. CUMMINGS, Maryland
DAN BURTON, Indiana                  BERNARD SANDERS, Vermont
JOHN L. MICA, Florida                DANNY K. DAVIS, Illinois
GIL GUTKNECHT, Minnesota             DIANE E. WATSON, California
STEVEN C. LaTOURETTE, Ohio           LINDA T. SANCHEZ, California
CHRIS CANNON, Utah                   C.A. DUTCH RUPPERSBERGER, Maryland
CANDICE S. MILLER, Michigan          MAJOR R. OWENS, New York
GINNY BROWN-WAITE, Florida           ------ ------
VIRGINIA FOXX, North Carolina

                               Ex Officio

TOM DAVIS, Virginia                  HENRY A. WAXMAN, California
                     J. Marc Wheat, Staff Director
               Nicolas Coleman, Professional Staff Member
                           Malia Holst, Clerk
                     Tony Haywood, Minority Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 10, 2005................................     1
Statement of:
    Reuter, Peter, Ph.D., professor, School of Public Policy, 
      University of Maryland.....................................    68
    Walters, John, Director, Office of National Drug Control 
      Policy, Executive Office of the President..................    18
Letters, statements, etc., submitted for the record by:
    Cummings, Hon. Elijah E., a Representative in Congress from 
      the State of Maryland, prepared statement of...............    10
    Reuter, Peter, Ph.D., professor, School of Public Policy, 
      University of Maryland, prepared statement of..............    71
    Souder, Hon. Mark E., a Representative in Congress from the 
      State of Indiana, prepared statement of....................     4
    Walters, John, Director, Office of National Drug Control 
      Policy, Executive Office of the President, prepared 
      statement of...............................................    21


                      FISCAL YEAR 2006 DRUG BUDGET

                              ----------                              


                      THURSDAY, FEBRUARY 10, 2005

                  House of Representatives,
 Subcommittee on Criminal Justice, Drug Policy and 
                                   Human Resources,
                            Committee on Government Reform,
                                                    Washington, DC.
    The subcommittee met, pursuant to notice, at 2:45 p.m., in 
room 2154, Rayburn House Office Building, Hon. Mark E. Souder 
(chairman of the subcommittee) presiding.
    Present: Representatives Souder, McHenry, Brown-Waite and 
Foxx.
    Staff present: J. Marc Wheat, staff director and chief 
counsel; Nicholas Coleman, professional staff member; Malia 
Holst, clerk; Tony Haywood, minority counsel; and Jean Gosa, 
minority assistant clerk.
    Mr. Souder. Good morning, and thank you for coming. Today 
we are holding our subcommittee's first official hearing of the 
109th Congress, and it is very appropriate that our topic is 
the Federal drug budget, the money that the U.S. Government 
spends to reduce drug abuse, whether through law enforcement, 
drug treatment or drug use prevention. Since its creation, this 
subcommittee's primary mission has been to oversee all aspects 
of the Federal Government's approach to the drug abuse problem. 
This hearing will go to the heart of that mission.
    When evaluating drug control policies, we must always apply 
one simple test: Do the policies reduce illegal drug use? That 
is the ultimate performance measure for any drug control 
policy, whether it is related to enforcement, treatment or 
prevention. And if we apply that test, the Bush administration 
is doing very well. Drug use, particularly among young people, 
is down since President Bush took office in 2001. Under this 
administration we have seen an 11 percent reduction in drug 
use, and over the past 3 years there has been a historic 17 
percent decrease in teenage drug use. That is in stark contrast 
to what happened in the mid to late 1990's, when drug use, 
particularly among teenagers, rose dramatically after major 
declines in the 1980's and early 1990's.
    These statistics show that the policies pursued by this 
administration and the Congress are working. The combination of 
tough and vigorous law enforcement, treatment of those 
suffering from drug addiction, and no-nonsense drug abuse 
prevention and education programs has yielded significant 
positive results. Our goal is to continue and build on that 
success by identifying which specific policies are working 
best, and which ones could use improvement, and which ones are 
not working.
    The President submitted his overall budget request on 
Monday. Although the Office of National Drug Control Policy 
[ONDCP], has not yet issued its annual Drug Budget Summary or 
its annual National Drug Control Strategy, our review of the 
overall budget proposal reveals the outlines of the President's 
drug policy priorities.
    First, the President is proposing a significant boost to 
Federal law enforcement and drug interdiction operations. I 
support that increase. Without a credible deterrent to traffic, 
the supply of drugs will simply overwhelm our other programs. 
Treatment and prevention will not work if drugs are not only 
plentiful and cheap, but there is no legal penalty or social 
stigma attached to their sale and use.
    The President's boost to Federal law enforcement agencies, 
however, is accompanied by a substantial proposed reduction in 
Federal assistance to State and local law enforcement. The 
administration is asking Congress to eliminate funding for the 
Byrne Grants Program, to cut funding to the Methamphetamine Hot 
Spots Grant Program by over 60 percent, and to cut funding for 
the High-Intensity Drug Trafficking Areas [HIDTA], Program by 
more than 50 percent. The HIDTA Program budget cuts would be 
accompanied by a transfer of the remaining funds to the Justice 
Department's Organized Crime Drug Enforcement Task Force 
[OCDETF], effectively terminating the program as it currently 
exists.
    These cuts would certainly have a very dramatic impact on 
drug enforcement at the State and local level, at least in the 
short term. I am also concerned that the damage to Federal, 
State and local law enforcement cooperation would be even more 
long-lasting. Most drug enforcement takes place at the State 
and local level, not at the Federal level. We need to be very 
sure that we continue to treat State and local agencies as 
partners in this effort.
    Second, the President is proposing modest increases in drug 
treatment programs from their currently appropriated levels. I 
welcome these increases, and I believe that this administration 
is taking positive steps to improve the performance and 
accountability of treatment programs. Without effective 
performance evaluation, it will be impossible for Congress and 
the public to judge whether various treatment programs are 
worth the substantial investment they require.
    I am particularly encouraged by the administration's 
continuing commitment to its ground-breaking Access to Recovery 
[ATR], initiative, which seeks to increase the availability of 
drug treatment services and to give patients greater control 
over the kind of service they receive.
    Third, the President is proposing deep cuts or level 
funding for many of our major drug use prevention programs. The 
administration is specifically asking for the elimination of 
the Safe and Drug-Free Schools Program, and the level funding 
of the Drug-Free Communities Program, and level funding of the 
National Youth Anti-Drug Media Campaign. I have serious 
concerns about this.
    It is true that many prevention programs, particularly the 
Safe and Drug-Free Schools Program, have had difficulty 
maintaining an antidrug focus and demonstrating results in 
terms of reduced drug use. However, terminating them outright 
or refusing to fully fund them sends the message that the 
Federal Government is backing away from prevention. Reducing 
demand is a crucial element of drug control policy. Rather than 
terminate prevention programs, we should look for ways to 
improve them by forcing them to measure their real impact on 
drug use. The Media Campaign, for example, has already done 
this. Its studies show that the advertising is reaching its 
intended audience and increasing their perception of the harms 
of drug use. The resulting reduction in youth drug use is the 
ultimate measure of success.
    In addition to our discussion of the budget, we will also 
be addressing the role and the future of ONDCP itself. ONDCP, 
which was established in 1989, is intended to act as the 
principal advisor to the President on drug control issues and 
to coordinate all aspects of the Federal Government's drug 
control policies. I have ongoing concerns, however, about how 
much impact ONDCP is having on administration policy. For 
example, ONDCP appears to have been largely absent in the 
ongoing debate over how to address the rapid expansion of 
Afghan opium production since the fall of the Taliban in 2001. 
Many of my colleagues and I have been very disappointed in the 
failure of the Defense Department to take effective action 
against the heroin traffic in Afghanistan; we are now also 
worried about the State Department's commitment to this 
program. ONDCP needs to take a more visible and active role in 
bringing the Defense Department and the other agencies together 
to craft a workable, effective anti-heroin strategy in 
Afghanistan.
    We plan to address these and many other issues today as we 
begin the budget process and our work on the reauthorization of 
ONDCP and its programs this year.
    We thank our principal witness, Director John Walters of 
ONDCP, for agreeing to come and testify today. We also welcome 
Professor Peter Reuter, a former drug policy advisor to the 
Clinton administration, whose testimony was requested by the 
minority. We thank everyone for taking the time to join us, and 
look forward to your testimony.
    [The prepared statement of Hon. Mark E. Souder follows:]

    [GRAPHIC] [TIFF OMITTED] T0878.001
    
    [GRAPHIC] [TIFF OMITTED] T0878.002
    
    [GRAPHIC] [TIFF OMITTED] T0878.003
    
    Mr. Souder. We will do a couple of procedural matters 
before moving ahead. Before proceeding I would like to take 
care of several of these procedural matters. First, since this 
hearing was originally scheduled as a full committee hearing, I 
ask unanimous consent that all committee members of the full 
Government Reform Committee present be permitted to 
participate. I ask unanimous consent. Hearing no objection, so 
ordered.
    I also ask unanimous consent that all Members have 5 
legislative days to submit written statements and questions for 
the hearing record; that any answers to written questions 
provided by the witnesses also be included in the record. 
Without objection, it is so ordered.
    I also ask unanimous consent that all exhibits, documents 
and other materials referred to by Members and the witnesses 
may be included in the hearing record, and that all Members be 
permitted to revise and extend their remarks. Without 
objection, it is so ordered.
    We have been joined--as Members make their way over from 
the vote, I went ahead and I did my opening statement so we 
could get rolling since we are 35 minutes behind.
    Let me first introduce two new Republicans on our side 
before I go to you for an opening statement; you can catch your 
breath. I am joined by our new subcommittee vice chairman, Mr. 
McHenry of North Carolina, and also by Ms. Brown-Waite from the 
west side of Florida, and we appreciate your participation in 
today's hearing as well.
    I now yield to the ranking member, Mr. Cummings, for his 
opening statement.
    Mr. Cummings. Thank you very much, Mr. Chairman. And 
certainly we welcome Mr. Higgins to our side of the table.
    Mr. Chairman, I want to thank you for holding this very 
important hearing on the President's proposed drug budget for 
fiscal year 2006. I would like to extend an appreciative 
welcome to our two distinguished witnesses, the Director of the 
White House Office of National Drug Control Policy and 
principal advisor to the President on drug policy, John 
Walters; and certainly to Dr. Peter Reuter, the founder and 
former director of the RAND Drug Policy and Research Center and 
now professor of public affairs in criminology at the 
University of Maryland School of Public Policy.
    As we meet today to discuss the President's proposals for 
Federal drug control programs and the process by which the 
Federal drug budget is formulated and defined, drug abuse, 
addiction and a corrosive and often violent drug economy 
continue to ravage communities throughout the Nation. These 
communities are urban, rural and suburban, rich, middle class 
and poor; and the drug threats they face vary greatly along 
geographical and demographic lines. It is clear that 
disadvantaged populations in our Nation's cities are 
disproportionately affected, however, and nowhere in America 
are the tragic consequences of drug abuse and drug violence 
more evident than in my own city of Baltimore, including the 
neighborhood I call home.
    It was just today in the Sun paper the Federal prosecutors 
took over a State case where a woman had been fire-bombed out 
of her house because she decided to cooperate with the police 
with regard to some drug activity, and, Director Walters, you 
will recall we dealt with the Dawson case where seven people 
were incinerated to death because they simply wanted to 
cooperate with the police with regard to drug activity. And so 
we see it up front and personal in the 7th Congressional 
District of Maryland.
    The Office of National Drug Control Policy plays an 
important role in shaping our Nation's response to the drug 
problem, and I am thankful to Director Walters for 
demonstrating his concern and compassion for the plight of my 
neighbors in Baltimore City. And I will say it, Mr. Chairman, 
that--and I say it to the world--I think John Walters has done 
an outstanding job; he has been fair; I've never felt one 
moment of bipartisanship. I feel that you deal with things in a 
very professional way, and I am glad that you are where you 
are.
    Because the drug problem is so multifaceted, the agencies 
that address its various aspects are located throughout the 
government. ONDCP was created in 1988 for the primary purpose 
of coordinating drug control policymaking among these various 
agencies.
    The ONDCP Director's authority to certify the budgets of 
the agencies that perform drug control functions is among the 
statutory tools that ONDCP has at its disposal to ensure that 
those budgets reflect and advance the President's priorities 
and goals in the area of drug control. The Director also 
oversees the formulation of the National Drug Control Strategy, 
which places the drug budget request and policy objectives in a 
narrative framework and evaluates the effectiveness of drug 
control initiatives for the prior fiscal year.
    Beginning in fiscal year 2004, ONDCP undertook a 
restructuring of the Federal drug budget that affects what 
costs and functions are included in the collection of agency 
budgets that we call the drug budget for purposes of evaluating 
and formulating policy. We will look at the implications of 
that restructuring today, in addition to looking at the drug 
budget itself.
    Although we have yet to see either the President's 2005 
strategy or a detailed accounting of the Federal drug budget, 
the proposed funding for all Federal agencies involved in drug 
control is set forth in the overall budget request submitted to 
Congress this week. From that, we can draw some conclusions.
    The fiscal year 2006 drug budget is more heavily weighted 
toward supply reduction than to demand reduction, and to a 
greater extent than in years past. The fiscal year 2006 budget 
allocates approximately 39 percent of drug control funding to 
demand reduction versus 45 percent in fiscal year 2005. Sixty-
one percent of the drug control spending is devoted to supply 
reduction activity, much of it based in source countries.
    The total $4.8 billion allocated for demand reduction 
fiscal year 2006 is not just a smaller percentage of the drug 
budget, it also represents a net reduction of about $270 
million compared to the level appropriated by Congress in 
fiscal year 2005. The most severe program cut in the area of 
prevention is elimination of $441 million in funding for grants 
to States under the Safe and Drug-Free Schools Program within 
the Department of Justice, and the consequences will be felt in 
classrooms across the country where States cannot fund drug 
education on their own. The Drug-Free Communities Grant Program 
is funded at $10 million below the authorized level, and the 
budget of the new Community Coalition Institute is slashed by 
more than one-half.
    In the area of treatment, there are substantial increases 
for drug courts and the Residential Substance Abuse Treatment 
Program, but the Substance Abuse Prevention and Treatment Block 
Grant, the backbone of the Nation's drug treatment 
infrastructure, and Targeted Capacity Expansion grants are 
merely level-funded. Within the Center for Substance Abuse 
Treatment, only the President's Access to Recovery voucher 
initiative, a new program, that serves only 14 States 
currently, receives a significant increase.
    With regard to domestic law enforcement, the President's 
budget increases support for the Drug Enforcement 
Administration, but proposes not only to cut the HIDTA Program 
by more than $128 million, more than half its fiscal year 2005 
budget, but also to move it to the Department of Justice. This 
would sharply curtail joint antidrug efforts by Federal, State 
and local law enforcement, and change the flexible nature of 
the HIDTA Program that makes it so effective and valuable in 
the Baltimore-Washington region and elsewhere. At the same 
time, we are increasing funding for supply reduction activities 
that have yet to fulfill their purpose of affecting the price, 
purity and availability of dangerous, illicit drugs like 
cocaine and heroin in the United States.
    Although marijuana use among the 8th, 10th, and 12th-grade 
students has dropped significantly, according to the December 
2004 Monitoring the Future survey, the very same survey shows 
use of cocaine and heroin increasing in the same population 
subgroup. Thus, while the data allows the President to claim 
victory in meeting his goal of reducing overall drug use by 10 
percent over 2 years, there is a disturbing trend going on with 
regard to cocaine and heroin, and our Nation's drug policy must 
be responsive to it.
    Mr. Chairman, the significant shifts in drug control 
funding priorities at the beginning of the President's second 
term will be attributed in part to the deficit, but the 
apparent de-emphasis of demand reduction is disconcerting even 
in that context. The deficit has many effects, but eliminating 
the unmet need for treatment capacity is not one of them.
    I'm also troubled by what drug policy experts outside the 
administration believe is a rather arbitrary approach to 
deciding what agencies and functions are included in or omitted 
from the restructured drug budget. Both of these developments 
concerning the drug budget raise questions about how ONDCP's 
statutory authorities are being exercised that we should 
address today and in the coming months.
    I'm really looking forward to a healthy discussion among 
our colleagues and our distinguished witnesses, and I yield 
back the balance of my time.
    [The prepared statement of Hon. Elijah E. Cummings 
follows:]

[GRAPHIC] [TIFF OMITTED] T0878.004

[GRAPHIC] [TIFF OMITTED] T0878.005

[GRAPHIC] [TIFF OMITTED] T0878.006

[GRAPHIC] [TIFF OMITTED] T0878.007

[GRAPHIC] [TIFF OMITTED] T0878.008

[GRAPHIC] [TIFF OMITTED] T0878.009

[GRAPHIC] [TIFF OMITTED] T0878.010

[GRAPHIC] [TIFF OMITTED] T0878.011

    Mr. Souder. Ms. Brown-Waite, do you have any opening 
comments you would like to make?
    Ms. Brown-Waite. No, Mr. Chairman, I don't have any opening 
comments, except to say that I recently sat in a teen court, 
and if you don't think that the drug problem is very pervasive 
among teens and very young teens, then I think we're deluding 
ourselves.
    I look forward to hearing the testimony today so that we 
can have a better handling on where this money is going, and 
the efficacy of it, too. Thank you.
    Mr. Souder. Thank you. Mr. Higgins. No, thank you.
    Mr. Souder. Thank you for joining the committee; I look 
forward to working with you.
    Ms. Foxx is another new Member from North Carolina.
    Do you have any opening comments?
    Ms. Foxx. No.
    Mr. Souder. OK. Thank you very much.
    Director Walters, you know our routine in the government 
forum, and we need to swear you in as a witness.
    [Witness sworn.]
    Mr. Souder. Let the record show that the witness responded 
in the affirmative.
    Thank you again for your leadership in this very difficult 
subject where we constantly work at our trials, and hopefully 
we can make a little progress year by year, but it is a never-
ending problem. We thank you for your leadership and thank you 
for again coming before our committee. I look forward to your 
testimony.

 STATEMENT OF JOHN WALTERS, DIRECTOR, OFFICE OF NATIONAL DRUG 
       CONTROL POLICY, EXECUTIVE OFFICE OF THE PRESIDENT

    Mr. Walters. Thank you, Mr. Chairman. It is a great 
pleasure to be here with you and Ranking Member Cummings, who I 
have had the pleasure of working with over the number of years 
I have been Director of this office.
    I don't look at my job as a hard job, I look at my job as a 
remarkably beneficial gift to work on something you care about. 
I know many of you see your service to the country in the same 
way. And I'm pleased at the opportunity to work with many of 
you who have given so much and allow us to be more effective in 
what we do with the executive branch programs that we fund.
    I appear before you today, as you have mentioned, to 
discuss the fiscal 2006 National Drug Control budget. Later 
this month, in a couple of weeks, we will release the updated 
National Drug Control Strategy detailing the policies and 
programs that are part of the fiscal 2006 budget. I appreciate 
this committee's longstanding support for the President's 
budget and strategy, and I am pleased to report that 
partnership, as you mentioned, has produced historic declines 
in youth drug use between 2001 and 2004, a 17 percent decline 
nationwide.
    We recognize that in some areas that decline has been 
greater, and in some areas the problem has gotten worse, and in 
some areas it hasn't gotten better. We do not intend by that 
number to suggest there isn't more to do; you know that, and we 
know that. Indeed, our policy and strategy and our budget is 
designed to capitalize on what we have learned over 30 years of 
struggling with this problem, and it is based on the 
President's direction that our job is to make that problem 
smaller as rapidly as we possibly can.
    With Congress' support and the President's fiscal 2006 
budget, we can keep programs such as the Youth Anti-Drug Media 
Campaign and others in prevention and other areas of the 
budget, as within our sight of reaching the President's goal of 
a 5-year reduction in drug use of 25 percent.
    My written testimony discusses the programs across the 
executive branch in some detail. I would like to ask at this 
point that it be included in the record, and I will just touch 
on a couple of points if that's all right, Mr. Chairman.
    Just as an overview, the 2006 provides significant 
resources to reduce the problem of illegal drug use. In total, 
the National Drug Control budget for 2006 is $12.4 billion, an 
increase of over $270 million--of almost $270 million, or 2.2 
percent, for fiscal year 2005.
    In a fiscal year when discretionary spending is essentially 
frozen, drug control dollars have increased; and at a time when 
our country is at war, performance and effectiveness matter. 
The State of the Union, as the President said, in this budget, 
it substantially reduces or eliminates over 150 government 
programs that are not getting results, or duplicate current 
efforts, or do not fill essential priorities. The principle 
here is clear: Taxpayer dollars must be spent wisely or not at 
all. I think we can all agree on that point.
    In terms of highlights of the Drug Control budget, I will 
just summarize a couple here and then take questions in 
followup areas that you have particular interest in.
    In continuing programs that we know work, the budget of 
HHS, Education and ONDCP include funding to support important 
prevention efforts. Almost 40 percent of the drug budget, as 
you mentioned, is for drug treatment and prevention. At the 
Department of Health and Human Services, the fiscal year 2006 
budget proposes $150 million for Access to Recovery, a $15.8 
million request above the 2005 enacted level for additional 
treatment, resources. At the Department of Education, the 2006 
proposes $25.4 million for student drug testing programs, an 
increase of $15.4 million over the 2005 enacted level. At ONDCP 
the 2006 budget proposes $120 million for the Youth Anti-Drug 
Media Campaign, which is consistent with the enacted level for 
the current fiscal year.
    Funding for supply reduction in the Departments of Homeland 
Security, Justice, State, Treasury and Defense will support 
operations targeting the economic bases of the drug trade; 
domestic, international sources of illegal drugs; and 
trafficking routes to and within the United States. This is the 
remaining 60 percent of the drug budget as apportioned among 
law enforcement, international programs, intelligence spending 
and interdiction activities. Program areas have recently 
expanded, as you know, to combat heroin production in 
Afghanistan.
    At the Department of Justice, an additional $22 million is 
requested for DEA in Central and Southwest Asia operations; in 
addition, the Organized Crime Drug Enforcement TaskForce fiscal 
year 2006 request includes almost $662 million for the 
Department of Justice, over $44 million for the Department of 
Homeland Security, and $55.6 million for the Department of 
Treasury.
    At the State, the 2006 budget remains committed to our 
allies in the Western Hemisphere by proposing $734.5 million 
for the Andean Counterdrug Initiative. And in supporting the 
fruition of democracy in Afghanistan, the budget proposes $188 
million for counternarcotics programs in that country.
    In conclusion, I look forward again to working with the 
committee as we have in the past, and the entire Congress, to 
implement the policies and programs called for in the fiscal 
year 2006 budget of the President. What we are proposing we 
believe will yield continued success.
    I thank you, Mr. Chairman, Mr. Cummings, for the 
opportunity to appear before you today. And for the members of 
the committee, I look forward to your questions.
    Mr. Souder. Thank you, Mr. Walters, Director Walters--Mr. 
Czar, as they called you.
    [The prepared statement of Mr. Walters follows:]

    [GRAPHIC] [TIFF OMITTED] T0878.012
    
    [GRAPHIC] [TIFF OMITTED] T0878.013
    
    [GRAPHIC] [TIFF OMITTED] T0878.014
    
    [GRAPHIC] [TIFF OMITTED] T0878.015
    
    [GRAPHIC] [TIFF OMITTED] T0878.016
    
    [GRAPHIC] [TIFF OMITTED] T0878.017
    
    [GRAPHIC] [TIFF OMITTED] T0878.018
    
    [GRAPHIC] [TIFF OMITTED] T0878.019
    
    [GRAPHIC] [TIFF OMITTED] T0878.020
    
    [GRAPHIC] [TIFF OMITTED] T0878.021
    
    [GRAPHIC] [TIFF OMITTED] T0878.022
    
    [GRAPHIC] [TIFF OMITTED] T0878.023
    
    [GRAPHIC] [TIFF OMITTED] T0878.024
    
    Mr. Walters. I spent a lot of time telling school kids 
there are no czars in America, and there are a lot of people 
who died to make sure there never will be.
    Mr. Souder. Thank you.
    I have many questions today, but let me start with kind of 
a general concern about some of the smaller programs within 
ONDCP that I believe are indicative of a larger concern that I 
have, and many other Members have, with the budget proposal 
list coming toward us.
    I'm going to roll several things together. These things are 
going to be, for the most part, pretty familiar with inside 
your Department, and I would like you to respond, because 
collectively these raise the specter to me of what happened 
under the Clinton administration when he first became 
President. They basically gutted the drug czar's office, it was 
one quick swoop from 120 staff down to 20 staff, and we watched 
drug use soar in the United States, and we are still trying to 
catch back up.
    Now, let me illustrate a couple of things. The 
administration requested $2 million less, basically a 10 
percent cut in your own budget, for administration in the 
Office of ONDCP. You also have positions for Administrator of 
the Drug-Free Communities Program, which is acting; Keith 
Sanders' position in the Counterdrug Technology Assessment 
Center, which is acting; the Deputy Director of Supply 
Reduction, which is acting; Deputy Director of Demand 
Reduction, which is acting. Now, there is nothing necessarily 
wrong with any of the individuals, but this is not exactly a 
heavy commitment out of the administration to get these people 
into a nonacting position and to firm up the funding and 
appointing of people.
    Furthermore, to get into some other illustrations that we 
have concerns with, the administration proposes to eliminate $1 
million for the National Alliance of Model Drug State Laws, 
which has been very critical in trying to develop laws across 
the country for States. Administration has proposed to 
substantially reduce the CTEC Program, the Counterdrug 
Technology, and particularly the research part gets cut almost 
50 percent. The Technology Transfer Program gets cut also by 
about--it looks like about 20 percent. Meanwhile, it's 
increased, as a small program, the U.S. Anti-Doping Agency, to 
$7.4 million, and world dues to $2.9 million for Anti-Doping.
    Now, we've all talked about steroid use, we've all talked 
about the problem with athletes, but when you look at the 
overall problem--when we say we're going to do performance 
measurements here--and we look at the impact that we're having 
in the technology assessment areas, in the areas of your own 
staff of Model State Drug Laws, and the huge abuse of marijuana 
in our society and of meth in our society, and then to take 
money from these programs and put huge increases in one shot 
into a steroid program, this more looks like it's a news 
release thing than actual measurement of what's going to reduce 
drug use in the United States. So first, in these smaller 
programs inside your agency, I have deep concerns about what 
they're doing to your particular department.
    Mr. Walters. There is some confusion, and so let me try to 
untangle some things in the presentation; I apologize if it's 
not as clear as it should be.
    My agency is the Federal agency that is the pass-through to 
the Olympic movement. The World Anti-Doping funding and the 
U.S. Anti-Doping Agency funding could be put in another agency; 
and those institutions have been stood up, they've been 
establishing what the various nations' contributions are going 
to have to be, and our request corresponds to the 
responsibility of the United States, because it falls to the 
Federal Government to pay these dues. Those are simply a matter 
of we're members, the money comes through my office, and we are 
the pass-through agency.
    On the other programming areas, first, we have made a 
decision about the relative value in areas of investment. I 
recognize reasonable people can differ about how you apportion 
what percentage of money for technology transfer; in my office, 
for research. We believe both of them are important. And again, 
I would say in this budget environment, as you know better than 
I know, we have more money in the drug budget. That did not 
happen by accident. That is a competition about resources and 
effectiveness; and again, it is a competition that will be 
played out here in Congress, I know, as well. So we will--we 
believe--in the programs that we are sustaining, we are 
sustaining because we believe in them. As you see, we have 
programs that we don't believe are working, and we have cut 
them. So we have been--and we have, in some cases, eliminated 
them.
    In terms of the personnel, let me just say, two of the 
positions you raised are Presidential-appointed positions that 
require confirmation. The incumbents left those positions late 
at the end of the first term. We made the decision that it was 
not feasible, given timing, to nominate and confirm such an 
individual late in the term. We are in the process of working 
with the White House to identify appropriate candidates and to 
nominate them.
    Some of the other positions that are more senior, we are 
moving to fill those. Some of them are senior enough, frankly, 
that there has also been a custom where, you know, depending on 
who is going to be the incumbent administration, to allow them 
to select their own senior people.
    We remain funded. We are making some cuts that I believe 
are warranted by the efficiencies we've been able to establish 
with regard to my own personnel. We believe that responsibility 
for efficiency is not just elsewhere; we're a management agency 
helping the White House and the executive branch make wise 
decisions and give information to Congress about what works and 
what doesn't and where we can properly make investments. We try 
to make sure that we're a good example of that.
    But the effort to sustain programs that are working is 
something that I think we all believe in. And I also think that 
we all believe that just because something has a title on it 
and says it goes to do something that's worthwhile, if you 
spend money on that and it doesn't work, it doesn't serve the 
children or the adults or the people who need treatment or the 
people who need public safety. The goal is to try to fix these 
things and to provide, where we can, more efficient use of 
dollars. We all wish there were more dollars, and you feel that 
as well as I do, but there aren't. And we have made what we 
believe are recommendations in this budget that will allow us 
to follow through with prevention and treatment and law 
enforcement.
    Essentially what the budget does, as the chart here shows, 
is if you take the five functional areas of the budget, we have 
asked for roughly 26 percent of the budget to go to treatment, 
12\1/2\ percent to go to prevention, 27 percent to go to 
domestic law enforcement, 23.2 percent to interdiction, and 11 
percent to international. We are going to spend more money on 
treatment than we do on interdiction; we're going to spend more 
money on prevention than we are on international programs under 
this budget. We think that is a kind of balance.
    Now if we were in a world where some of the demands on us 
weren't what they were in Afghanistan or somewhere else, would 
we move some of those dollars around? Of course we would. But 
we think that part of the integration involves doing things 
that have to be done internationally. And I will point out one 
example which I believe you are all familiar with.
    Last year, in the last calendar year, through the help of 
the Colombians, who have now reduced--and we don't have 2004 
numbers yet, but just the 2002 and 2003--30 percent of the coca 
that produces cocaine, most of which comes to the United 
States. And in the last year our interdictors and their people 
in staging areas seized 400 metric tons of cocaine. That did 
not come into the cities and the communities of the United 
States.
    Now, we all want this to be more aggressive. We are all 
hopeful that the acceleration in Colombia and our ability to 
control borders and interdict will help prevent the poison as 
we treat the people who suffer from the poison, as we prevent 
young people from going down that path. But again, this is a 
supply and demand problem; we're trying to control both parts. 
And we are trying to apportion resources across programs that 
work--treatment, prevention, public safety--here at our 
borders, and international programs that will make a 
difference, because, of course, much of the substances that we 
face come from outside our borders.
    Mr. Souder. Before yielding, and I'm going to in a second, 
I'm going to do a series of questions in the second round that 
are in depth because this is--we're trying to understand the 
budget directly.
    As I understood you to say you felt that you were 10 
percent overstaffed--you said through efficiencies you were 
able to absorb this, which is a way of telling us you are 10 
percent overstaffed--that several of your acting positions 
are--in fact, you had a reason for; several others were less 
clear to me. But what my problem is with this in general is 
we're having the same problem over in the Department of 
Homeland Security. We have a Director--a Coordinator of 
Narcotics that has been put in a detailed position, they 
wouldn't fund it. They zeroed out the category for Director of 
Narcotics. So this is a pattern across the administration, not 
just a random thing.
    The Anti-Doping you said was a pass-through; is that 
correct? So did you support that or not support that?
    Mr. Walters. Yeah; we believe that the United States should 
be a contributor to these programs that provide integrity and, 
in fact, become a model for our own professional athletic 
enterprises as well; and they keep, obviously, the Olympic 
movement better protected from doping as a form of change in 
chemistry.
    Mr. Souder. And as I understood, you said you're putting 
hard measurement criteria on this, and we would like for our 
committee's record the hard measurement criteria that the Model 
State Drug Laws have not, in fact, contributed to a reduction 
in drug use that you said in your testimony, because I presume 
if you propose zeroing it out, that they must not have worked. 
If you propose increasing the dues for the U.S. Anti-Doping 
Agency apparently, internationally, you have more evidence that 
their program works than I do.
    If you have evidence that CTEC didn't work and deserved a 
20 percent cut, or that their research program deserved a 40 
percent cut, we would like that provided to the committee; 
because if this is evidence-based, not budget-based, then there 
should be some evidence.
    Mr. Walters. Look, I've always been candid with you, I'll 
be candid here--and I would if I wasn't under oath. I am under 
oath.
    We are trying to make decisions, as you know, about 
programs and their effectiveness. We have a certain amount of 
resources we can spend. So some things can work but not be a 
high priority. Some things can work to a certain degree, but 
they're not efficient enough to--we're making judgments; we 
don't have a machine that's like a thermometer that says you've 
got 80 degrees, you get $80. We are making judgments, and I 
recognize reasonable people could differ.
    On the World Anti-Doping, that's a dues. We have to pay 
that or we don't get to compete in the Olympics, and we've 
agreed to make commitments to try to participate. That money 
happens to go through my office. It could go through HHS, it 
could go through another agency. That's just a matter of where 
it was lodged before I got here.
    On the issue of CTEC and others, certainly reasonable 
people could differ about where you want to put dollar for 
dollar. We've made a judgment. And in my office, with the 
number of people--I didn't have people sitting around, you 
know, making chains of Styrofoam cups--but I have made, through 
our efforts at creating a work force that is more effective in 
building efficiencies to work on focusing on people, what we 
think are prudent adjustments in the work force.
    I have been in government long enough to be in a 
situation--I'm not saying that you're putting me in that--where 
people make those kinds of adjustments and then are punished 
for coming forward and saying, I can be more efficient, I want 
to take less, and people who fought for the appropriation, 
Appropriations Committee punishing you for doing that because 
they think you kind of undermine changes they made.
    I hope we can be fair enough here to say, look, we want the 
agencies to be more efficient. This isn't about how many 
bureaucrats it takes to do the job, it's about the job we do 
for the country and if we can be more efficient. Nobody is 
gutting my office, nobody is forcing me to take fewer people. I 
am suggesting that we can consolidate and focus our energies in 
ways that as we've seen, since I've been in the office for 
about 3 years, that will allow us to be more effective in the 
future with fewer people. I think that's what you want.
    Mr. Souder. Just for the record, the Technology Transfer 
Program is a model program that we are actually trying to set 
up and copy in Homeland Security that gets night vision 
goggles, it gets radios, it gets key things for local law 
enforcement to try to help them compete with the increasing 
sophistication of drug dealers across the country. You had set 
up a model program. We get a model program, and then we propose 
gutting it; and what it looks to me is it is a move to dollars 
to Federal programs and away from State and local efforts, and 
that is the difference in policy.
    Mr. Cummings.
    Mr. Cummings. Thank you very much. Thank you, Mr. Chairman.
    I want to just piggyback on some of the things that the 
chairman has said.
    When, say, for example, the President and his Cabinet, and 
you, I guess, propose to eliminate the Safe and Drug-Free 
Schools grants to States, and to cut the HIDTA budget by $100 
million, I just want to know, were you for that?
    Mr. Walters. Yes, sir.
    Mr. Cummings. Were you for that? And how does that process 
work?
    Let me tell you why I'm asking. I'm not trying to--I just 
want to know, because this affects a lot of people. And I think 
that when you've got employees who--I mean, I've sat and talked 
to some of these wonderful, brave folks that work in HIDTA, and 
a lot of them are putting their lives on the line every day. 
And one of the things that they like to feel is that the people 
who are at the top are supporting them; I mean, that is just 
good for morale. And I think what I am trying to figure out, 
for my sake and for theirs, is how does that process work? And 
then I would like to hear specific comments about HIDTA and 
about the Safe and Drug Free Schools programs. I'm just using 
those two.
    Mr. Walters. Well, if you want--the general background is, 
in terms of the construction of the budget, we send out 
guidance in springtime essentially to all the drug control 
agencies, following the enactments of the previous year, the 
current fiscal year; or in the proposals, the policy that we 
are contemplating, what we think works and doesn't work, we 
give them general guidance about their programs' directions and 
futures. We receive program-level submissions in the summer as 
they are submitted through the agencies--actually, sometimes 
before they're submitted through the agencies--through OMB. We 
continue discussions with the departments about priorities and 
directions. We receive sometimes information on evaluations and 
data during the year. We work then with the departments, with 
OMB, and then for those--where there is a dispute, there is an 
appeal process right up to the President on critical budget 
matters.
    In the case of the two programs you raised specifically, 
Safe and Drug Free Schools, I am aware, I have travelled around 
the country, that there are a number of people doing important 
work in schools that is partly or significantly funded by this 
program. I am also aware--and we have said for some time, we 
have had discussions with Members of Congress--that the problem 
with this program is there also is a significant amount of 
money here that you can't show whether it's producing any 
results. And the program has been broadened; and, in fact, you 
are allowed to transfer money, as some school districts have 
done, out of drug programs into other education programs.
    Now, again, we can have a variety of flexible programs. I'm 
responsible for saying what works in drug control. This 
program, after several years of working with the program staff, 
does not have the demonstrable results, and there is some 
indication that we have difficulty building those into this 
format. That's not helping a lot of the kids that need the 
help. It's holding the place of a program that should, but it's 
not being restructured.
    We're proposing to put more money into national programs 
and education that can be targeted. We're proposing to expand 
and sustain things like drug treatment, things like community 
coalitions, things like drug testing that we believe will help 
to expand and effect reductions in both prevention, and those 
who have begun to use, by cutting off that use early or by 
treating it.
    In the case of HIDTA--which I recognize is a subject of 
some concern, we knew that when we made the decision--the 
program has important needs to focus on disrupting the market 
of the drug trade. There has been criticism of the program that 
too much of the money goes to Federal agencies. We have put 
more money into FBI and in DEA to back-fill some of the 
positions that were taken because of needs with regard to 
terror, and to construct an intelligence that would then allow 
us to target both further and the State task forces better; the 
Fusion Center that is being set up now through congressional 
appropriation in the Justice Department, a total of almost $90 
million in those three categories.
    The $100 million for the HIDTA Program that we are offering 
to transfer to--or proposing to transfer to Justice would allow 
us to do two things: one, put the program in the context of 
other Justice programs and management under the Deputy Attorney 
General where task forces exist. We know these drugs, the drugs 
that come to your city, are not made in your city, they come 
from other places; they come from other cities on the east 
coast, they come from other countries, they come from 
organizations that market at various levels. And in order to 
effectively cut those off we need better focus and intelligence 
and coordination; and where we're doing that will make a 
difference.
    We have been trying to put this into the structure of law 
enforcement from Federal to State and local task forces. The 
effort will be to maintain the State and local focus of the 
HIDTA Program, but put it under a consolidated management and 
direction that can work more effectively with State and locals 
to cutoff the drugs and the organizations that are marketing 
the poison at the higher levels that make a difference.
    The 400 metric tons of cocaine I talked about seizing has 
happened without an increase, significantly in interdiction 
assets because of other pressures in the Caribbean and in the 
eastern Pacific. The reason is we've had better intelligence. 
When we do it smarter, as we do with terror, when we can 
identify individuals, and when we can coordinate pressure on 
key elements, we can make a difference.
    If the Federal Government, on the other hand, however 
important local law enforcement is, and it is important, 
obviously, but when all those resources are drawn in a way to 
the largest number of potential sellers or the largest number--
we're not cutting off the head of the snake. We start this 
process, which you and I have talked about, of taking 
generation after generation of young men, especially poor, 
minority young men, in our cities and putting them in jail. And 
I think citizens rightly say, can't we stop this? Lock the 
people up the chain that if we focused on wouldn't allow this 
business to continue.
    That's what we're all trying to do, and the way to do that, 
we believe, is by using the intelligence tools which you have 
given us and which we have worked with law enforcement to get, 
by focusing--and I recognize for some people this change is 
going to be painful, but the reason we're doing it is not to 
cut the budget; the reason we're doing it is to cut the drugs. 
And we believe that the record here will show that we have been 
able to strengthen OCDETF, strengthen the task force structure, 
and put this program in the context of other coordinated law 
enforcement programs to do the jobs we're trying to do to help 
HIDTA around the world find the key elements, incapacitate 
them, keep them off balance, and to help reduce the terror and 
ravages they put in our cities.
    Mr. Cummings. We have had--and I appreciate your response. 
We have had a number of people from DEA and others come in and 
talk about how the fight on terror, against terror, has yielded 
some significant results with regard to drugs; in other words, 
we tighten up on the borders, we, like you said, using our 
intelligence more extensively, and in that net sometimes you 
come up with some drugs, findings or results.
    And I guess when you were talking about the 400 tons, I was 
saying to myself, well, maybe it's true that a portion of that 
400 tons came--that we were successful there because of our 
efforts with regard to terror. But let me give you the other 
side of it that concerns me.
    The chairman and I worked very hard on trying to get--we 
were worried that when we moved to dealing with terrorism, that 
the new Department of Homeland Security would not have--would 
not put the emphasis on drugs that we were hoping that they 
would. We were worried about that, so we had--we were able to 
create a position--what was the name of that position?
    Mr. Souder. The counternarcotics officer.
    Mr. Cummings. Yeah, the counternarcotics officer. And I'll 
tell you, the chairman--we had the counternarcotics officer in 
here 1 day for a hearing; and it was one of the saddest things 
I've seen, because he was temporary, he had to beg for his 
budget from different people. It seemed almost like he had 
been--become a step-child in the whole process. And I will 
never forget that day because I remember the chairman and I 
looked at each other and said, is this what we created? I mean, 
we were looking for somebody who had some real authority, 
somebody who did not have to go around asking different people 
could they get money. And the chairman can correct me if I'm 
wrong, but it was kind of a disturbing moment because it seemed 
to go against the very thing that we were trying to do.
    And I guess as I--you know, as I listen to you, I just 
wanted to make sure that, see, with the HIDTA, they would 
definitely--they had their eye on drugs. That was their thing. 
I just wonder when you move things around a little bit and you 
say, well, we're going to now have them coming under Justice, 
and Justice is going to do this and do that, I don't want our 
efforts to combat the drug problem to get lost in the process. 
That's what concerns me.
    And, you know, I think that--it's not just that I'm 
concerned about these employees that go out every day and put 
their lives on the line, I am very concerned about that, but I 
am also concerned about what you're concerned about. I am 
concerned about the mission, because as I've said to you many 
times, you know, I've got terrorists in my own neighborhood----
    Mr. Walters. Yes.
    Mr. Cummings [continuing.] That people are much more afraid 
of, believe it or not, than they are of somebody coming from--
you know, sending a bomb over to this country and harming 
somebody, because they deal with it every day, they see it 
every day. They see their relatives destroyed by it every day; 
they see their property values going down every day. And so--
they see that they can't come out of their houses every day. So 
it's not like some foreign person over in Iraq, they're worried 
about what's going on in their neighborhoods.
    And I think--and he can speak for himself--I think the 
chairman had the same kind of concerns, that we want to make 
sure we deal with terrorism--we've got to do it, no doubt about 
it--but we also have to balance it and make sure that we deal 
with the problems that we have here right at home.
    Mr. Walters. And we could not have a stronger point of 
agreement on that.
    I also think of it as, for those people who die serving in 
the Armed Forces in Iraq or Afghanistan or in other places 
where is it less visible, they don't give their lives to allow 
young people to be eaten up by drugs. They don't give their 
lives to have our new neighborhoods destroyed. It's a failure 
to keep faith with them and the sacrifices they and their 
family make to not make this problem small as fast as we can.
    We agree. And the issue here is not about caring. Now, do I 
think we could make some continued management improvements? Of 
course I do. I think the intelligence fusion that we're talking 
about is critical. I know people like to say, well, there's too 
much talk about intelligence and various centers, and are they 
really working. The key to doing this is intelligence, and I 
believe the battle on terror is not an obstacle, but a lesson. 
This is a small number of people, small quantities of poison 
sent to our cities to kill our citizens. We need to be--we 
can't turn ourselves into a police state. We need to be able to 
go after the structures that provide that, and we need to 
obviously prevent citizens from being addicted and from 
starting this path, who draw that, through their dollars, into 
our communities. We believe in that balance.
    Now, again, people may differ about what level, what 
program, what contribution. We have made decisions that we 
believe are right. I recognize that people can have other 
opinions about the apportionment, but the key that I think that 
we can't reasonably disagree with is we want law enforcement 
pressure against the critical elements that will break down the 
system, the higher the better. The frequency of operations 
against high-level structures in trafficking have to be 
accelerated. We have to break down, as we do, the ability of 
these networks to continue to operate when we take one or two 
people out in working with the Justice Department. Two-year 
investigations, however great and dedicated people are, and 
take down somebody and charge them with 600 years of violations 
is something that we're trying to change.
    We have created the first consolidated target list of 
potential--or of known major traffickers, and we want to 
accelerate taking them down, identify and remove them as 
rapidly as possible to begin to cause breakdowns. We have not 
had serious breakdowns except for two examples. It looks like 
the largest decline you see on teenage drug use is in two 
categories, LSD and ecstasy, over the last 3 years, where, in 
addition to the overall 17 percent reduction, you see 
reductions in over 60 percent. It is apparently because we have 
significantly disrupted the supply, in addition to getting our 
prevention messages on ecstasy.
    And on LSD we certainly disrupted supply because we took 
down a major distributor who had, in abandoned missile silos, 
made or who had material to make 25 million doses. The 
consequence is we did not realize how centralized that was.
    The goal is to expand that so that we accelerate both 
prevention and demand reduction and supply reduction. Again, 
can we do that? Many people think it can't be done, but this is 
a business that is infinitely capable of resisting damage by 
law enforcement or by interdiction or by operations. We don't 
believe that. We believe people are making a difference every 
day. We believe 400 metric tons of cocaine that doesn't come 
from the United States saves lives. We all want to begin, 
though, to say people are having trouble getting drugs to harm 
themselves, they're getting into treatment, they're getting 
away from the temptation. And that's, I think, our common goal.
    Mr. Cummings. Just one more question, if you will, Mr. 
Chairman.
    I can't ask you, because asking would be too cheap. I am 
begging you to help us deal with this issue of witness 
intimidation. I'm telling you, we cannot have thugs going 
around killing people because they want to testify and 
cooperate with the police. We can't have that.
    Mr. Walters. I agree.
    Mr. Cummings. Anywhere.
    Mr. Walters. I agree.
    Mr. Cummings. And I cannot tell you how much this bothers 
me, because what that means is that we will have a lawless 
society.
    Now, I don't know how bad it is in other places, but when 
you have a situation in Baltimore that 30 to 35 percent of your 
cases can't go to trial because witnesses are being threatened, 
and killed sometimes, and harmed, and they disappear--we had a 
murder case--not a murder case, some fellow comes and shoots up 
a school, shoots into a crowd of students. They couldn't even 
go forward with one of the cases because nobody would testify 
because of what we think to be witness intimidation. And you 
know the Dawson case. All I'm saying, I mean, I just--we need 
help.
    Mr. Walters. I will talk to the Attorney General, who has 
recently been confirmed. I've had brief discussions with him, 
but we're going to sit down and we're going to review the full 
range of programs. I'll talk to him, and we will get back to 
you on what we can do.
    Mr. Cummings. Thank you.
    Mr. Souder. I'm going to go through some of the different 
sections that were in your written testimony as well as in the 
budget because I want to make sure we will be following up with 
written questions, because as we work with the Appropriations 
Committee, as we work with your reauthorization and others--and 
we have oversight over all these different programs, and our 
staff has been getting budget briefings department by 
department. And I want to say at the beginning, again, when I 
first was elected, and Lee Brown was the director of this 
office, I watched a man who had been aggressive in local law 
enforcement in Houston and then in New York get denuded in the 
Office of National Drug Czar. And he had to come up here and 
tell us all the time about how this fit the budget 
expenditures, how this is going to be more effective, how they 
were going to work in other types of programs as we watched 
drug abuse rise year after year after they started doing the 
cuts. And then we finally get it turned around, starting with 
General McCaffrey, who flattened it, you came in and have been 
very aggressive, a strong advocate, and all of a sudden it's 
like, where did this reversal come from?
    Your requests are $200 million less than the previous year. 
Yes, you have had some reshifting. I understand that there 
needs to be targeting. I understand that there are budget 
pressures, but let me go through a couple of other things.
    First off, probably the most successful thing, and you 
fought for every dime, is the Media Campaign. You have done 
measurement. You have retooled it. We get these little fights 
on the side, but basically it has worked. Last year, you 
requested $145 million. This year, you are requesting $120 
million. What you are requesting is what we appropriated 
because, as you and I have talked, Congress failed. It wasn't 
the administration that failed in the Media Campaign. Congress 
failed. We have in effect in real dollars had substantial 
reductions in this program from two angles. We haven't 
increased it inflationary for--how long is the $120 million 
figure in there?
    Mr. Walters. The $120 million is for this year. When I took 
office, it was a $170 million program.
    Mr. Souder. So we are down to $120 million from the $170 
million. Last I checked, even though the inflation rate is low, 
it has still been an inflation rate every year.
    Mr. Walters. The inflation rate in advertising purchases is 
higher than the base rate of inflation.
    Mr. Souder. You have some inflation in the cost of 
advertising dollars. Is it safe to say that the value of your 
$170 million would probably be $200 million today?
    Mr. Walters. Yes. Again, off the top of my head--I don't 
want to be cavalier, I don't know--but it would be more than 
$170 million, sure.
    Mr. Souder. I would argue that you probably--even inflation 
of 3 percent a year is a 12 percent increase, which puts you up 
near $200 million alone, let alone the rate of increase greater 
than 3 percent. We had lots of small programs in that budget. 
You have tightened those up. You have worked with the 
advertising production cost. Yes, you can achieve certain 
efficiencies, but I don't think anybody here is going to argue 
that you can achieve 40 percent efficiencies. You have done 
very well with this.
    Mr. Walters. Let me just say, just so we are clear to you 
about what has happened; we have maintained in the target youth 
audience, middle-age teenagers, the reach in frequency of 90 
percent of the target audience sees on average four ads a week. 
We have maintained that throughout the program. We have 
strengthened the force. For the parent part of the audience, I 
think it is about 85 percent see three ads a week. I will have 
to go back and give you the precise numbers. But we have 
maintained that contact. How we have done that is, there is a 
match, as you know, in this program. For every $1 we buy, we 
get $2. We had in the past provided part of that matching money 
to other youth-related programs, boys and girls clubs, other 
kinds of programs, SAAD, MAAD, would be able to match it. We 
have taken the match back. The match is now running our ads 
almost exclusively. So we have maintained contact by focusing 
the program on our messages, and I think that is why you see it 
doing the extent of the work. I am not against being efficient 
here, but again, I have a problem. If I request--if I am 
telling my colleagues in the administration, I am going to 
request an amount I can't get through Congress, you help, 
others help with the appropriation process, but to ask for 
money we can't show we can get through Congress is to take 
money away from another program we should fund. I will be 
happy--I am worried because every year, you know, this program 
has been cut. I am worried about keeping $120 million.
    Mr. Souder. A couple of things with this. I want to make 
sure this gets on the record because this is the single biggest 
program left if HIDTA goes out from under you. This is the core 
of your office, and it is the core of our prevention efforts, 
especially if we ditch Drug-Free Schools. This is the 
prevention program, this and drug testing, which is a much 
smaller program. This is our whole prevention program in the 
United States under the administration's basic--other than a 
much smaller drug testing program.
    Mr. Walters. And good community coalitions.
    Mr. Souder. And good community coalitions, which also is 
flat funded. And no new programs. In other words, it is a 
maintenance. In the Media Campaign, several things. One is what 
it means is that when we say we need to regionally target meth 
because you are tying to reach the national, you have to go to 
partnership and then the match ads. We don't have the 
flexibility in the budget to do things other than this basic 
targeting that you just described, in other words, reaching the 
target youth audience on the marijuana message--and we have had 
a great impact on that, but the diversity of messages and the 
things we were doing is what has partly been tossed out in the 
budget.
    The second point I would make is that, as you know, if you 
don't keep the $120 million in the campaign, at some point 
here, the whole campaign goes down. In other words, if you 
don't reach a threshold in advertising, all of us agree that 
the measurement isn't going to be there and that we don't spend 
$90 to $100 million to get decreased messages. I know you will 
dig in, but I would have several points here in this budget. 
When you request $120 million, and OMB full well knows this, 
that the odds of holding $120 million become harder than if you 
request $145 million. This is a labor negotiation process. If 
they don't believe that, I better not see a budget next year 
that has things that the administration wants at a figure that 
we didn't appropriate it. Because under this logic, you have a 
number of things such as move HIDTA to OCDETF. I don't think 
that is going to happen. But if it doesn't happen, then don't 
come back for money for OCDETF if the principle is which you 
are telling me they tell you, if you don't get it funded, then 
don't request it. Then if they have a bunch of funding things 
in here this year that don't get funded, don't come back to us. 
That is the principle.
    Mr. Walters. Let me try to correct a couple of points 
because I don't want to leave the misunderstanding. Nobody 
tells me. I can make an argument for anything I want, and I 
will do that when I think there is merit. But again, through a 
lot of work and a lot of support, including amazing support 
from some key members, including the Speaker, we got the $120 
million. We have had a debate with the Senate over the value of 
some of these programs. You know that as well as I do because 
you have both followed this. We are trying to work with 
Congress. This is a partnership. We understand that. We are 
trying to make requests that are reasonable and that will cause 
in some cases change.
    The other argument here is, we just kind of continue to go 
along, and we don't provide leadership. I believe this is a 
leadership budget. We have drug use going down. We have drug 
funding going up. I know we are making changes. I know some 
people may not agree with some of those changes. But, again, we 
did not make these by accident. They are not a fait accompli. 
We believe they are right. It is not about, this is a budget I 
am holding my nose about. If somebody says that they do not 
know what they are talking about in the budget process, we made 
changes to take programs out that were less effective and 
support things that are more effective.
    Would I like more money in some of these programs? Yes. But 
you make a reasonable judgment about your ability to get the 
request. Because as both parties agreed as recently as the last 
election, we have to get the deficit down, and we need to keep 
the economy growing. We are going to have to control domestic 
spending. In that environment, when you know what the budget 
has, how many other agencies are taking substantial cuts, the 
drug budget, I repeat, is up and drug use is down. That is what 
you were asking us to do and that is what we are trying to do 
here with these programs.
    On the Model State Drug Laws Program, for example, you 
mentioned my office. I do not believe that is currently making 
the contribution it should make at $1 million and I believe my 
staff can work with States as we are working with cities around 
the country, including Baltimore, including Washington, DC, 
including Detroit, Los Angeles and New York directly to help do 
that. I am asking to make an economy there. Congress has had a 
different view over the last several years. It wants $1 
million. It wants it as a separate agency. Again, I have not 
changed my mind and I am not lying to you. I think we should 
zero that and let my staff do it.
    Mr. Souder. This year again it is being cut 10 percent. 
Your staff is being reduced. Administration is being reduced 10 
percent. You have people that are not being cleared and you are 
in effect telling us that you are going to take over 
responsibilities for other agencies. Furthermore, your request 
is down $200 million. What you are saying is Congress last 
year--you are increasing Congress' request appropriated last 
year, not the administration's request. You reduced the 
administration's request. And then what I did not go through 
with you is we believe there are some funny numbers in how you 
combined the drug dollars. In other words, there are things 
that are not counted in the drug budget and things that are 
counted in the drug budget and things that we do not feel are 
necessarily going to be used for narcotics that easily can 
slide over to homeland security. And like Ranking Member 
Cummings just said, we are a little less confident when things 
move to OCDETF, or to FBI, that those are going to remain drug 
assets. I want to get into a couple of other categories.
    Mr. Walters. May I correct just one thing I have been 
reminded for the record? My budget does not propose the 
reduction of one single FTE in my office. The reduction in 
salaries and expenses is because of a reduction in rent and 
lease space, which is an economy that is reflected there. Let 
me correct for the record, I am not reducing my staff. However, 
I will also stand behind my statement. This is not about how 
many bureaucrats are in my office. I resigned at the beginning 
of the Clinton administration when I was the caretaker to hand 
over the keys when they announced the cutting of the office by 
80 percent, down to 25 people, because--I stopped being the 
caretaker because there was not anything to hand over. I 
understand what the gutting of the office was and I took a very 
strong stand at that time. That is not what is happening to my 
office. I would not stay if that was happening to my office. I 
want to be clear, suggestions to the contrary, I vigorously 
object to that.
    Mr. Souder. You had a 10 percent--you had a $2 million 
reduction in rent which is 10 percent of your total 
administration budget?
    Mr. Walters. I will give you the office budget. We can go 
through that with you.
    Mr. Souder. We want to see that, because that would mean 
that your reduction in rent was 10 percent of your whole 
administration operations cost.
    Mr. Walters. Well, there may be other expenses. I am just 
saying I am not proposing to cut FTE.
    Mr. Souder. That leads to the problem we ran into in 
Homeland Security. We will want to see, then, and we can 
followup, what FTE means, how many people are detailed. Does 
this mean--because what we learned over there when we got into 
it is that they did not have any dollars so they could say that 
they did not get a reduction in FTEs because they were detailed 
and they got a reduction in detailees which reduced other 
administrative expenses. Let me move to the HIDTA question. Mr. 
Cummings has already raised this. I am going to ask you a 
series of questions, and then you can restate a little bit, but 
let me start with the end. At your nomination hearing, you 
said--you stated your opposition to moving the HIDTA program. I 
am now going to ask some questions to see how this relates. Do 
you believe that this move will increase--enhance the capacity 
of the HIDTA program and of ONDCP to coordinate investigations 
and resources between Federal, State and local law enforcement? 
We created your office as a coordinating because we had all 
these other agencies fighting over who was going to do 
narcotics and that the whole purpose of having a Director of 
ONDCP and we moved HIDTA in because what happened is that if 
you did not have direct control and the ability to move certain 
dollars around, you did not have power. All you could do is go 
into a meeting and say, I think, I think, I think, rather than 
having the ability to actually move dollars. Do you really 
believe this will enhance the capacity to coordinate? Do you 
believe that State and local agencies will welcome this move? 
That is certainly not what we are hearing. The whole design of 
this program was to draw resources from them and blend it with 
a small amount of Federal money. There is a concern about this. 
Will it make them more likely to cooperate? That is not what we 
are hearing. Do you think they prefer to work with OCDETF 
rather than HIDTA as it is currently set up? Do you believe 
that the HIDTA program will be more effective, this transfer 
will be more effective than the HIDTA program in the use of 
taxpayer dollars where we are leveraging a small amount? Most 
of the HIDTAs we visited as we were doing a reauthorization all 
over the country, most of the dollars in there were paid for by 
State and local people with the operational supplement to these 
huge dollars being invested. And if you believe this is going 
to be more efficient, what document, study, report, JO 
evaluation, internal audit or anything suggests that OCDETF is 
going to be more efficient at doing this than what we have 
already? And you and I know that I have some concerns about 
whether the HIDTA program has been turning into a pork-type 
program, how it should be targeted and whether there should be 
national targeting. I have backed you up to a certain percent 
national targeting. But this looks like a wholesale instead of 
a 10 percent national targeting.
    In your responses so far, you say we need to go after the 
top guys. But do we need to go after the top guys with 100 
percent of the money or do we need to go after them as we tried 
to work with and get cooperation? If you help us with some, we 
will help you with some. This looks like a surrender of that 
strategy, and saying the Federal Government is going to take 
all the dollars and we are going to go on our own. Good luck.
    Mr. Walters. That is not what we are proposing here.
    Mr. Souder. By the way, by cutting Byrne Grants, those who 
do not have HIDTAs, like my area, have a drug task force, now 
have just had the Byrne Grants slashed simultaneously. So to 
argue that the Justice Department with OCDETF is going to have 
an equivalent with Byrne Grant in their department and in 
effect replace your office with the Justice Department, this is 
not going to happen if Byrne Grants are zeroed out.
    Mr. Walters. Let me back up 1 second. I do not think the 
criteria is fair to the people who are doing what they are 
doing now when you propose change, are they going to like that? 
Change of the kind we are talking about, of significant 
restructuring, is something that people, even when it is for 
their own good, if it is, sometimes resist. There can be change 
that is not good. I understand that.
    Mr. Souder. I want you to clarify that what you are saying 
is that prosecutors, sheriffs, agents in the field do not want 
change. The people who are doing 90 percent of the arrests 
should not be consulted when there is change? We should not ask 
them whether they like the change? I do not understand when you 
say they will not like the change. They might not, but they are 
the people who are doing it. We are not arresting anybody.
    Mr. Walters. I was doing the intro to my response to your 
question.
    Mr. Souder. Excuse me.
    Mr. Walters. I do not think this change is designed to 
reduce cooperation. I recognize there are people who are not in 
support of this. We recognized it when we made the decision. 
The issue is how do we best reduce the supply of drugs in the 
United States at the national and at the local and regional 
level. Everything that we know about this is that we need to do 
this by a better understanding of how markets work, identifying 
vulnerabilities, and by going after those vulnerabilities. 
Because of the multijurisdictional character of this, again, 
they do not make the drugs they use in your district primarily 
in your district unless they are meth. They do not make the 
heroin. They do not make the cocaine. They do not make much of 
the marijuana. That comes from somewhere else. That is why we 
have a Federal enforcement effort. That is why we have these 
laws in this area of crime that we do not have in other areas 
and why we work globally as well as locally.
    The question is, how do we better focus that? We are saying 
all of our experience with OCDETF, with law enforcement, means 
that our local task forces, which are, I will point out, in 
DEA, parts of OCDETF, involve local people, as well as the 
HIDTA program. Again, we are--yes, we are pursuing this program 
as a targeted, managed, directed cooperation. The $100 million 
that we are proposing for the program will be focused, as we 
have said, in the budget on State and local support, not on 
Federal support. I talked about the increases we have made to 
other key Federal agencies that have participated to provide 
resources for them. I know there are people who understand this 
HIDTA program to be a revenue-sharing program. We have fought 
that battle. There are people in the Senate. There are people 
in the House--more in the Senate--who want this to be, you 
designate a place, and they get a certain amount. There are 28 
places that get that, the rest of the country does not, or 
maybe it will but we do not know.
    We believe the best way and the recommendation here is--
because we believe we have a chance to substantially reduce the 
supply of drugs by strengthening our enforcement. And it must 
include State and locals in this case. But on a coordinated, 
managed, targeted basis. And so we are trying to integrate 
these enforcement efforts together under the authority of the 
Deputy Attorney General of the Justice Department, we are 
trying to remain consistent, in this case, with State and local 
law enforcement. I know there are some painful decisions about 
how much Federal assistance there is going to be to State and 
local law enforcement and whether it is going to come through 
Justice grants or Homeland Security grants or what the levels 
are going to be and those are difficult, and then, when the 
funding jumps around, people get jobs, their jobs are in 
jeopardy, that is a problem. I am not ignorant of that. I have 
sympathy for that.
    But when you have the positions that we have, you try to 
make decisions on the basis of what will best serve the 
interests of the country. I recognize sometimes people are 
going to be unhappy. Sometimes they are unhappy for good 
reasons, and we need to follow what they are telling us. 
Obviously, they know things that we do not know, and we ought 
to be willing to learn. But we also have to make a judgment. In 
my judgment and the administration's judgment, here is--this 
program is a powerful tool. It has been a powerful tool. It can 
be a more powerful tool if it is moved and integrated, 
remaining State-and-local-focused and part of a consolidated 
effort that will increasingly with the information we have and 
the way we are doing targeting allow us to break the businesses 
that are the drug trade.
    Otherwise, you are chasing primarily small people, putting 
them in jail year after year, generation after generation. 
Break the business. Do not break the generation after 
generation is what we are calling for.
    Mr. Souder. Before yielding to Mr. Cummings, and I say this 
and for those who are not used necessarily to this aggressive 
questioning coming out of me to an administration figure that 
we, in fact, share most views. We have some disagreements right 
now. You are having to defend a budget that basically I do not 
believe is defensible. But this is--we share deeply almost all 
the different values and my being aggressive and your being 
defensive. I encourage you to be a little more cautious because 
you, in effect, have implied several times that the primary 
resistance to this are people's jobs, that people do not want 
to have change in certain areas because they are vested in a 
certain way. This is somewhat a disagreement of philosophy, not 
about who has turf or jobs. I believe, as you aggressively do, 
that Colombia, Afghanistan, I have made those same kind of 
arguments, but it is a balanced approach, and I believe this 
budget is gutting a balanced approach. That is my concern. Mr. 
Cummings.
    Mr. Cummings. Can you explain what data goes into OMB's 
program assessment rating to how HIDTA and the Media Campaign 
were rated? Do you know?
    Mr. Walters. Yes. The principal data that goes into it are 
the reports that are part of the GPRA process, the government 
results and--the accountability statute that each program is 
supposed to provide. The quality of the design of those plans 
and objectives for the program. And then the quality of the 
measurement of achievement of those. In other words, if the 
program has a certain purpose but the operation of the program 
is not aligned with that purpose or is not able to carry out 
that purpose or the data shows that if it is aligned properly 
it is not achieving that purpose, it gets a lower score than 
one that is. Again, this is a tool. It is a tool for the 
decisionmaker. It is not the decisionmaker.
    Mr. Cummings. From a very practical standpoint, let's say 
the budget goes through as it is right now as proposed. What 
happens to the HIDTA offices?
    Mr. Walters. We are proposing--again, we have proposed this 
as a starting point. We have not proposed this as a decision in 
all detail. I will work with the Justice Department. We will 
work with people in the field to realign the program under the 
principle of integration and coordination, focused on State and 
local support. I presume that means that some of the structure 
may continue as is. Some of the structure obviously would 
change. But we have not made--we have not decided that in 
advance. When you obviously meet with a program this involved, 
with the partnerships involved, we are going to need to work 
not only with Justice Department but obviously the people in 
the field.
    Mr. Cummings. But it could mean and it is reasonable to 
assume and you may have said this in what you just said, that 
some of those offices actually, the locks will be put on and 
the program itself is gone, will be gone, some of these 25 at 
least.
    Mr. Walters. Sure. Everything is on the table at this 
point.
    Mr. Cummings. I was listening to some of the chairman's 
questions. It was my understanding that back in the fiscal year 
2006 budget scores, there was a $300 million increase for the 
U.S. Immigration and Customs Enforcement as drug control 
spending. But when my staff looked at the ICE Web page, they 
saw items describing ICE's efforts in the war on terrorism, 
investigations into Canadian telemarketing fraud and child sex 
abuse cases, to extradition of a double murderer to Honduras, 
but not a single item explicitly relating to drug control. How 
is it that ICE is scored as a drug control while the costs of 
prosecuting and incarcerating defendants for drug crimes is 
excluded from the restructured Federal drug budget?
    Mr. Walters. You are asking that question because I think 
we have kind of touched on this topic, and I am glad to have a 
chance to respond. As you know, in the first strategy that we 
released in 2002, we announced our intention to restructure the 
budget. The goal of this restructuring was to focus the program 
array on the things we are doing and managing to make the drug 
problem smaller, not just the cost of the drug problem. There 
had been in the past, beginning when I actually served in the 
Reagan administration, when this problem began, is to try to 
also capture, how much does the government spend on the drug 
problem? On many of those that were arrayed, part of them were 
arrayed to show what the costs were. Part of them were arrayed 
to show, if you spend a lot of money, you care a lot, which 
sometimes is true, sometimes is not true. So, for example, 
programs like Head Start, because a small number of the people 
who came in relatively might have gotten referred to treatment 
or prevention, there was a good faith effort to estimate that, 
and that small percentage arrayed against a small program 
created a large number. So you had a large budget.
    But the problem was, I believe that was fundamentally 
dishonest and certainly was not good management because we were 
scoring parts of things that we could not manage and we could 
not work with you at managing. So we reduced the budget to the 
managed programs that are designed to make the problem smaller, 
so we could, for the first time, take money across supply and 
demand, prevention, treatment, interdiction and international 
programs. There are pressures on those programs that have to be 
kept in mind but we could look at these things and really do 
them in a comparative way. For some agencies, a small number, 
for example, some DHS programs, Veterans Affairs, this is 
modeled on what happened at the Department of Defense, you have 
multifunction programs that do not pull out a single component 
like DEA or like the block grant for treatment. What did we do 
in that case? We issued a series of circulars asking those 
departments, once they got their appropriation and on the basis 
of the appropriation we represented, to give us a financial 
expenditure plan that they would manage those dollars for drug 
control purposes. For example, we made a change in this year's 
budget with regard to Veterans Affairs. Veterans Affairs had 
scored not only the treatment, and as you know they are the 
largest single hospital system in the country, and they spend a 
lot on treatment. In addition to that, they were scoring 
related health care costs for people who come into treatment. 
Sometimes those health care costs are a result of your 
addiction. We know there are diseases. But what that happened 
to do is capture roughly a half a billion dollars as treatment 
funds connected to this budget.
    As we refined these numbers in the process, we took those 
out. I could inflate the treatment number and the demand 
reduction number today by half a billion dollars just by not 
making that change. What I chose to do is to focus on, what are 
we really spending here and to talk about what--not what the 
drug problem costs, because you know the cost. A large portion 
of mental health costs are connected to substance abuse. A 
large portion of dependency and welfare costs, child 
endangerment costs as well as a variety of other costs, prison 
costs, prosecutorial costs; those are not managed costs. Those 
are consequences of the drug problem, and we are not going to 
not give somebody health care and Medicare and Medicaid that 
may be because the disease is related to drugs because we did 
not fund the drug portion of it. We are not going to not 
incarcerate people that are convicted because we did not score 
this.
    Again, we provide information on cost. We provide a report 
which we just released again on the cost of drugs to the 
society. The specific institutional costs, incarceration, 
problems in their jobs, health care costs, missed opportunity 
costs. We provide that report in a separate publication that 
covers all those costs. So we are not hiding any of those 
costs. What we are doing is providing a budget that really 
shows you what we are spending and so, when you make choices as 
legislators, you can say, I think this ratio is wrong or I 
think this program makes sense, and this does not make sense, 
and you are not getting a scored array of money that does not 
mean anything.
    It also allows people to say, we are spending $80 billion 
on drugs, and how can we show it is effective? I recognize 
$12.5 billion is a lot of money. I have not been in Washington 
so long that I do not spend that. But I like to point out to 
people, for those who think it is a lot, it is a big country, a 
country that spends $25 billion on candy a year. So I think 
this is a responsible budget that focuses on the responsible 
programs that work, and we need to make sure that is what we 
are focused on and not about accumulating costs for reasons 
that really confuse the central debates we need to have.
    Mr. Souder. Mr. Cummings asked you about ICE and the fact 
that ICE does not have anything on their home page, and we are 
having a tremendous problem as a member of the Homeland 
Security Committee figuring out what they are actually doing in 
drugs. Why is that in the budget when they do not even 
acknowledge in their home page that they do it?
    Mr. Walters. Again, I cannot account for what is on their 
Web page. I can account for what is in their financial plan, 
and we will be happy to provide that to the committee. I think 
that is a truer statement of what is going on here. And 
obviously, I could put anything on a Web page and make it seem 
bigger than it is. The issue is, what are you doing? But I will 
say that ICE is a valuable and important player in a number not 
only of investigations but, obviously, enforcement actions, and 
we are working with them, as we are with other agencies of 
Homeland Security, and the personnel there are making important 
contributions. I am sorry that some of this stuff does not get 
conveyed to the public, which is important, and to other people 
as clearly as it should be, but I do not think that is 
indicative of the fact that they are not doing and we cannot 
account for the fidelity between what we propose in the budget 
and what we see as results to the best of our ability in these 
multifunction agencies.
    Mr. Souder. There is an alternative explanation to what you 
just said. In other words, your explanation is that the home 
page may not be reflective of what they are doing and what we 
are in effect questioning, is the financial proposal to you 
reflective of what they are doing, because maybe the home page 
is reflective of what they are doing and that is my concern 
from hearings cross-examining ICE officials.
    Mr. Walters. I believe those financial plans, and my staff 
can correct me if I am wrong, are also subject to their 
financial authority's audit and vouching for it. You do not 
just get to kind of say you spent that much and we say, OK, 
great, we take you at your word. There are internal financial 
and fiscal measures.
    Again, when we imposed using these authorities that 
actually are in the office and are a subject of, I think, our 
reauthorization, when we imposed these they were not 
particularly welcome in a lot of these agencies because we were 
now telling people in agencies that, in addition to kind of 
like giving us an estimate of what you spend that you then can 
go ahead and do whatever you want with, you are actually going 
to have to do what you said, and we are going to require--we 
require a spending plan before they spend their fiscal year 
money. So we will be happy to let you know what we see and what 
the corresponding report is on the fidelity of those financial 
plans but, again, we have done this to create a real 
representation of where resources are going and to really be 
able to make decisions about priorities that are consistent 
with what happens to the best of our ability.
    Mr. Cummings. One of the programs that we have been able to 
move enthusiastically under this subcommittee was the Drug-Free 
Communities Program. It is a program that we embraced because 
it is a way of empowering the everyday citizen who wants to 
address prevention and drug problems in their neighborhoods to 
do something. There are so many people who are probably 
watching us right now who are sitting there just feeling 
helpless. And so that is a program that I like. I am sure--and 
it is just based upon conversations with my colleagues, not 
only on this subcommittee and committee but in the Congress. I 
get a lot of inquiries about it. People want to try to help 
their communities help themselves. You talked about the 
effectiveness of using taxpayer dollars. I just was wondering, 
what is your assessment of the Drug-Free Communities Program? 
And then we had to call this an institute, and now I see that 
their budget has been cut by half. I am just wondering, where 
are we on that?
    Mr. Walters. Let me make it clear. We have level funded the 
Drug-Free Communities Program. We have requested the same funds 
in the various components that we requested last year. In this 
budget environment, we did that because we think it is an 
important program. It is a measure--as you can see, we have 
made sometimes painful decisions on programs we do not support, 
and we made those recommendations. We have doubled the number 
of Drug-Free Communities during the first term of the Bush 
administration. There are now 714. We have worked with your 
office on one of those coalitions in your district. We believe 
this works. It is in the process, though, as a new program of a 
complete evaluation. It has been reviewed under the hard 
structure, but we are in the process of creating an evaluation 
mechanism that will allow us to tell whether those communities 
are effective. I have instructed my staff to accelerate that 
process to the maximum extent possible because I think what we 
want to do is to see as clearly as we can what the contribution 
is of those communities in reducing drug use. We believe it 
allows us to bring together, as you know, faith communities, 
treatment, law enforcement, private sector, government, 
schools, parents, public officials in those communities, 
because we know that when they all play a critical role in this 
problem, we make more progress. We think that is the way to go. 
The program is designed to, as you know, help to form 
coalitions, help to stand them up, give them a number of years, 
if they are working to be able to be supported and to then get 
them supported by the community. So we are hoping to be able to 
continue the process of growing that program. But the goal is, 
I think, certainly reflected--the goal of increasing those 
communities, the number of communities we have met, we continue 
to push the program.
    Mr. Cummings. The reason why I raised the question is that 
there is $10 million on the authorization, but I guess your 
argument would be is that if it is level funded, considering 
all the things that are happening to other parts of the budget, 
that is considered a victory. I am not trying to be facetious.
    Mr. Walters. Yes. Look, would you make some of these 
decisions in another environment? Maybe. Maybe. Again, I think 
this program is strong. Also, I think it would be useful to us 
to have the evaluation. Again, I think people feel very good 
about the program. I think it has done some remarkable things. 
I have visited a lot of these communities. It gives hope. I 
agree with you. My staff, I am instructing to actively try to 
recruit more in areas that we identify where there is a drug 
problem. This is a tool that is relatively inexpensive that 
allows us to help organize people, in our cities, in Native 
American areas that have been hit by substance abuse, in rural 
areas where people feel isolated. We have all kinds of examples 
of these that work. We have created mentoring coalitions to 
help start other coalitions. We have a lot of things going on. 
We have people who--yet we are also being rigorous and say 
where coalitions fail. We want to be able to replace failing 
coalitions with new coalitions that have an opportunity to work 
and allow failing coalitions to have an incentive to make 
themselves work. We went through this, I think, with some of 
the folks in your district where they had trouble getting 
themselves organized, and now they are there, and now they are 
moving, I think.
    Mr. Cummings. They are. That is what I was trying to get to 
when I was talking about the coalition piece being cut in half. 
It seems to me that, if we really want to maximize our dollars 
and try to guarantee as much progress as we can, you want to 
buildup your coalition. It seems like your institute, if you 
build that institute up, have that cooperation using best 
practices and things of that nature, then you would have a 
better opportunity of maximizing effectiveness.
    I know it is a small amount of money but I am talking about 
the coalition piece. But I think, for that small amount of 
money, the dividends are just huge, or have the potential of 
being huge. So the last thing I think I would want to see done 
is cut the coalition institute piece in half. Do you follow me?
    Mr. Walters. Yes. Again, I understand this as we are not 
only supporting the community coalitions program, we are 
supporting the institute. We are not supporting it at the same 
level Congress appropriated last year. You added $1 million. We 
believe that, under those circumstances, our request last year 
is the right request this year. People will have other views. 
We are not trying to cut the effectiveness of the program. We 
are trying to make sure we support the program and continue 
that effort and in this environment, again, I think this is a 
measure of our seriousness in support and not a measure of 
criticism here. There may be a difference about how much money 
you put into the institute versus--look, my own view is I want 
to keep that million dollars in the base of the program to 
start more coalitions. It is $100,000 a year; $1 million is 10 
more coalitions. Maybe somebody thinks that $1 million in the 
institute is a better way. I guess my view is, I want to keep 
that $1 million in the coalition program. You could say, well, 
why don't I just ask for another $1 million? Because I also 
have to worry about the technology transfer program and C tack 
and the Media Campaign. So we are trying to make an environment 
that is responsible decisions about proportionality which I 
recognize reasonable people could differ over. That is the 
thought process. I am being honest with you.
    Mr. Cummings. Let me just ask you this. I think you said--
correct me if I am wrong--you said that when--I guess when 
Clinton first came in, you decided you wanted to leave. Is that 
what you said?
    Mr. Walters. That was too brief. I am sorry. At the end of 
the President's father's administration when I was working at 
the drug office, there was a request for individuals, political 
appointees, I was actually a deputy for supply reduction at 
that time, to stay on in each of the agencies to transfer the 
agencies to the incoming administration. I was asked to be that 
person at the Office of National Drug Control Policy. There 
were 146 FFEs in the office at that time. Following the 
inauguration, I was in there, it was February 9, I believe, I 
was there till that point. I was working with the one person 
that was there for transition. The administration announced 
that it was going to cut the office from the 140-plus 
positions, and we had already removed political appointees, so 
it was below that a bit, to 25. I did not believe that there 
could be a serious transition to 25 people, and so I resigned 
at that point before Mr. Brown was nominated and confirmed 
which I would not have done, but I just felt that, and that is 
why I maybe was too defensive when the chairman suggested that 
my office was being gutted. I have been there, and I have 
strong feelings about the office.
    I think the country is certainly stronger than any single 
bureaucratic office, but I think it plays an important part and 
so maybe I reacted a little more strongly than I should have. 
But I watched a lot of destruction. I watched a lot of what we 
had built up because the office just came into existence in 
1989, and I think, while the office does not simply make for 
the national effort, I do think it exists to coordinate things 
that need to be coordinated and when it is broken, things start 
falling apart. As long as I am here, I am only going to be here 
as long as I think things are not falling apart, and I do not 
think that is what is happening here and I maybe reacted a 
little too strongly to the hint that the chairman thought they 
were. Again, I recognize that we are all in the same agreement 
on this, but there was some painful history there.
    Mr. Cummings. Let me just ask you this. I hate to put you 
on the spot, but I am curious. When you look at the cuts, is 
there anything, any of these cuts that bother you personally? I 
believe in you. But I am just wondering, is there anything here 
that bothers you? That you look at and you say, well, you know, 
maybe we have gone a little bit too far here? Or maybe this is 
not going to get it? Is there anything here? Or that you lose a 
little sleep over?
    Mr. Walters. I think that the array of programs that we are 
talking about here are, and not just because I am in the 
administration, are the things we need to do. The places that 
we have increased funding I believe are critical places. Would 
I if I had a free hand do more? Last year, we asked for $200 
million in the President's Access to Recovery Program. Congress 
gave us $100 million. I believe and the President believes we 
need more money in treatment. We believe we need to provide it 
in a flexible way. We believe we need to provide it to more of 
the people who are seeking treatment and do not get it. If we 
came back and asked for $150 million, I recognize in this 
budget it is going to be hard to get the additional $50 
million. I certainly know that both of you care very much about 
this, and we are going to need help again to try to get that. I 
would like to see more of that. The other large cut that you 
have brought up, look, I believe the HIDTA program will work 
better or the purpose of HIDTA by restructuring in focus. I 
sense there is a disagreement among us about what we should be 
taking our bearing from and so forth. I believe that we can 
change the face, and we can only change the face of supply 
reduction systemically by coordinated intelligence-based 
Federal, State and local enforcement. We are partly moving 
there. We need to accelerate that as rapidly as possible.
    Maybe we should have some discussions with you and maybe 
some of your key staff about what tools we think we are 
bringing to bear and why we think that so that you can have a 
full understanding of maybe why it is not just a matter of, 
somebody says yes and somebody says no from the executive 
branch. You have many things you have to be concerned about. I 
understand that. We should be fair in making sure we are making 
you fully aware of what we are thinking so you can judge 
whether or not we are right.
    The other area is obviously in the Safe and Drug-Free 
Schools Program. I understand that this is certainly a serious 
cut, and I also understand that it affects the apparent balance 
in the program. And I certainly appreciate the many people who 
are working in schools to be effective. The problem with the 
program is that in this environment, the program is not focused 
effectively and demonstrably on reducing drug use and 
prevention. We believe that we can better support that by 
working in community coalitions, by nationally targeted 
programs where we put more money into the national program part 
of the education account to allow accountable grant programs to 
reduce substance abuse. We also believe that, frankly, as we 
have talked, the other areas of support that we are trying to 
foster are building into the health care system a better 
ability to screen for drug problems early, doctors and 
pediatricians and hospitals in the screening brief 
interventions programs, in the effort to bring drug courts. We 
are trying to double the drug courts program. There were 400 
more drug courts last year alone, up to over 1,600. Everybody 
knows these work and they are critical for people who start 
down the path to stop and to get them early. We also believe 
that drug testing is the most powerful and potentially far-
reaching and lasting program. If we can get over the 
misunderstanding that it is going to be used to punish--that it 
cannot be used to punish--it allows us to connect the 
understanding of addiction as a disease with the tool of public 
health that has changed the face of so many childhood diseases.
    We cannot give people the treatments we have for HIV/AIDS 
if we do not test them to find out whether they have HIV. We do 
not treat people for tuberculosis if we do not test them as to 
whether they have tuberculosis. And when we do, certainly we 
have to worry sometimes about the stigma, but in this case, we 
know testing works for adults in major parts of our, not only 
the military and transportation safety, but when I go to 
schools, I see kids who are afraid. I am sure they are the same 
kids that you see in Baltimore, the same kids I see in other 
cities and places. Middle school and high school, they see what 
is happening to some of their peers and some of their families. 
They do not understand why adults do not do more to stop it. It 
is because, in part, in addition to prevention, it is a game of 
hide and seek. Kids start, they bring this behavior back, they 
encourage their friends to use with them. They are an example. 
Drug use is fun and it does not cause any consequences. Look at 
me. That is an ad for drug use. What testing does is it gives 
those kids the ability to say, I cannot use, I get tested. It 
is an amazingly powerful prevention tool, and in the schools, 
that have it, kids feel safe.
    Mr. Cummings. I have to tell you, if I extracted a part of 
the argument you just made, it would fit very nicely with 
justifying keeping the Safe and Drug-Free Schools piece. I am 
just telling you, what you just said. As you were talking, I 
could not help but think about--and then I will finish up. I am 
finished, Mr. Chairman.
    When I think about Safe and Drug-Free Schools, I think 
about the fact that with our kids, it is not always the deed. 
It is the memory. It is a memory that we impart with them that 
lasts with them for a long time. As I was sitting here 
listening to you, I could not help but think about my daughter 
who is now 23 years old. I will never forget; she came home 
when she was about 6 years old, and she says, ``Guess what I 
learned today, dad?'' I said, ``What is that?'' She said, ``I 
learned the fire department came in and told us to stop, drop 
and roll.'' I had never heard of that, believe it or not. The 
reason why it came into my mind is because, as we were talking 
about it, I was kidding her about it the other day.
    But what I am saying is I am just wondering. I heard your 
testimony about the Drug-Free Schools. It seems like the 
problems that you talked about, in other words, trying to 
measure, making sure the money actually goes into efforts to 
stop our kids, prevent our kids from using drugs, it seems like 
there would have been a better way than, say, eliminating the 
program even if you had to reduce the funds, I do not agree 
with that, but if you had to, but to zero in a bit on those 
specific concerns. I am sure you may have had more than you did 
not mention. But what I am saying to you is sometimes I think 
we need to--the same reasons you just gave are the same reasons 
that I think it is important that we send those messages as 
early as possible, and hopefully, when that young person gets 
in that environment, whether they are in the 10th or 12th 
grade, 11th grade or whatever, and they are around drugs that 
they can hearken back to a time when there was some program in 
their school where Ms. Brown said something about not using 
drugs. It may sound very simple, but it is very real.
    I think one of the things that Americans are asking for, I 
hear all this stuff about moral concerns in the elections and 
all that, but you know what people really want? They want to 
make sure that government helps them raise their kids in a safe 
environment, in an environment that is healthy, and so that 
they can grow up and be productive citizens. I think that those 
kinds of programs like the safe and drug-free schools is one of 
those things, because all kids go to school. We have a captive 
audience. Just something that I just wish you would consider.
    Mr. Walters. Thank you.
    Mr. Cummings. Thank you, Mr. Chairman.
    Mr. Souder. I want to ask some additional questions on 
international. First, you do not only manage different 
programs, but you also weigh in on a wide range as our No. 1 
antidrug spokesman. I wondered if you have weighed in with 
USAID concerning its financing of harm reduction programs. Let 
me give you two examples.
    The 14th International Conference of Reduction of Drug-
related Harm was held in Chiang Mai, Thailand from April 6-10, 
2003. It was sponsored by the International Harm Reduction 
Association, the Asian Harm Reduction Network and cosponsored 
by the Center for Harm Reduction and USAID. What was a Federal 
agency doing cosponsoring in effect a drug maintenance, as you 
and I have worked with this issue--harm reduction is a code 
word. What were we doing and did you speak up to USAID and say, 
this is not what you should be doing with Federal dollars? 
Also, the Asian Harm Reduction Network's 350-page second 
edition manual for reducing drug-related harm in Asia contains 
a USAID logo, and the production of the manual is acknowledged 
inside the cover, ``this publication was made possible through 
support provided by the Office of Strategic Planning Operations 
and Technical Support, Bureau for Asia and the Near East, 
United States Agency for International Development.''
    Included in the second chapter of the manual, rationale for 
harm reduction, are sections on, ``needle and syringe 
programs,'' ``sales and purchasing of injecting equipment,'' 
and removing barriers. Chapter five, injecting safely, are 
sections devoted to, ``sharing of injecting equipment and safe 
injecting.'' Did you review the USAID drug program and have you 
spoken with Administrator Mastios about the abuse of taxpayer 
dollars clearly contrary to the intent of Congress?
    Mr. Walters. I was not aware of these publications, or I 
did not attend that meeting. I will say that, as I think you 
know, we have been pretty aggressive with international bodies 
that have been called to or drifted toward harm reduction, more 
aggressive than I believe others have been in the past as this 
has become a more pervasive issue. We have reminded people of 
their treaty obligations. We have talked to media in some 
foreign countries, including Canada. You were with me.
    We have met with international bodies, including U.N. 
bodies about the structure. I was not aware of the particular 
publication. I will be happy to look into it and report back to 
you.
    Mr. Souder. Thank you. Let me move on. You and I argued 
yesterday about Drug-Free Schools, so we will not go through 
that today. But I have some concerns. I know the program is not 
as effective as it should be but I do not believe it should be 
zeroed out. I believe we need to make it more effective. Let me 
go to intelligence next because you talked about intelligence 
and you made a statement with which I do not agree. I agree 
that intelligence is the most important but intelligence 
without the assets to effectively do something about it is a 
problem, and we have been hearing steadily from the different 
agencies about concern that our intelligence is identifying 
targets, and we are not able to implement, and this budget I 
believe will make it more difficult to implement. Let me give 
you an example. JIATF South is a successor, as you know, to 
JIATF East which is based in Key West. They are responsible for 
coordinating drug interdiction between defense, customs, Coast 
Guard and other agencies on the gulf coast. JIATF West, based 
in Alameda, CA, was responsible for the same mission in the 
eastern Pacific. As of October 1, 2003, JIATF South's area of 
responsibility was expanded to include both the Gulf coast 
Caribbean and the eastern Pacific, which was before under 
California.
    Now that the JIATF West is in Hawaii, they have a far more 
western outlook. This change has greatly increased JIATF 
South's workload, which goes directly to your question of 
intelligence, but it has apparently come with no additional 
resources or personnel, so they now have Caribbean and eastern 
Pacific, and at the same time, the Defense Department has 
reduced their budget. So while we are talking about the 
importance of intelligence, we have consolidated and factually 
reduced, and it did not transfer those resources. In other 
words, they reduced JIATF West when it went, and they did not 
transfer them to the south. So given this DOD reorganization, 
what have you done to make sure that we have adequate resources 
that they can manage it in JIATF South?
    Mr. Walters. The use of those interdiction resources, as 
you know, are something that we at times have to triage because 
of the platforms and the need for those platforms in a variety 
of missions. When we raise the threat level, we pull Coast 
Guard and other military assets into roles that may pull them 
out of interdiction service and have in the past, as well as 
when we have other kinds of demands throughout the Caribbean 
and the Pacific that are specific and may move some of these 
around. We have a limited number of these platforms and 
personnel. So in some cases, yes, it is a dollar issue, but in 
some cases, it is a matter of you have to use the pieces that 
are on the board at the present time. There have been and there 
are people as you know as well as I who have worked heroically 
over time in this area as in other areas of Homeland Security 
and Defense to do the additional job that they have had to face 
since September 11, 2001. I think their results speak for 
themselves. It is historic levels of seizures which no one has 
ever seen before. In fact, levels that, for the first time, 
give us the possibility of having a fundamental change in the 
ability to market some of these substances on the basis of a 
significant contribution from interdiction. We are trying to 
work to make sure that these resources are allied, but as you 
know as well as I, I cannot tell you that we do not base 
demands on military personnel, military budgets as well as 
Homeland Security agencies. So we are trying to triage this.
    I do not think that anyone can say that the budget as it 
was presented is chintzy with regard to Homeland Security or 
the war on terror. We have tried to focus on that, 
understanding it is the first priority. Yes, we are still--we 
still have limits. And so I understand your point, and I will 
continue to try to work to help to make sure the resources are 
there. My staff works regularly with the people in those 
centers and in those agencies.
    I would expect that at times and sometimes for some 
duration, people are going to feel some additional weight and 
sometimes we do not have all the platforms we want. We are 
trying with this budget to increase the available flight hours, 
for example, from air time patrol aircraft, which are a 
critical part of the interdiction process. We are looking at 
deploying and the Coast Guard has been heroic in deploying more 
of the hitron teams that are so effective in this kind of 
interdiction in most of both the East Pac and the Caribbean. 
Again, though, I would say, the achievement here under these 
circumstances is largely because of substantially improved 
intelligence that helps to give us the ability to use platforms 
in a targeted way. As you know, you have seen this, there are 
vast amounts of ocean and vast amounts of air and vast amounts 
of land that you have to cover. And if you are out there 
patrolling around looking for something, you are not going to 
find much.
    Mr. Souder. Does it make you sick to your stomach when you 
hear people at these intelligence agencies saying we can see 
this stuff moving, but we do not have the resources to stop it, 
knowing people are going to die on the streets of the United 
States because we do not have the resources to stop it, now 
that we know it is coming?
    Mr. Walters. Sure. But the goal here is--I also am aware 
that this is--it is an operational setting. You try to have as 
many resources as you can in an optimal way because there are 
demands on resources other places that are also designed to 
save lives. We cannot just make sure everybody has everything 
they want in one sector all the time and that means we are 
going to try to optimize productivity and make a judgment about 
how.
    Mr. Souder. Part of what the frustration, and it is 
bubbling up in Congress is that we had a battle in the last 
administration of where initially the Defense Department had 
put drug use. They had put it at the bottom. By the end of the 
Clinton administration, to their credit, they had moved it back 
up. Our current defense secretary moved it back to the bottom, 
so we have seen it weaken at JIATF Six. And consolidating it 
into Northern Command, we are having the battle over air time 
assets in the Caribbean and South America.
    We are having a similar battle over in Afghanistan that I 
am going to get to in a minute, and the fact is that we have 
intelligence. They have pulled refueling support out, which has 
been very critical, and we could get that in a speculative 
question of potential terrorist activity, when we know we have 
20,000 to 30,000 people dying annually of drug abuse, when we 
see a load of cocaine and heroin coming and do not catch it 
because we are trying to prevent something that we do not 
have--it is a risk assessment game here. None of us want a 
nuclear, chemical or biological attack to hit the United 
States. None of us even want a small dirty bomb to hit the 
United States. The question here is that you have to do risk 
assessment, and this is what some of us are pushing.
    Sometimes you are going to need to be the skunk at the 
picnic because somebody has to say, you cannot put it all over 
here for an infinitesimal risk and ignore what is coming at 
you. That is terrorism in the streets of Baltimore, terrorism 
in the streets of Fort Wayne, and let it come when we see it 
coming, where we know it is going to land. But we have a boat 
pulled over here because there is a one-one-thousandth of a 
hundredth percent chance that something may be coming over 
here, and everybody panicked. That is literally what is 
happening right now in the resource battle because nobody wants 
to get blamed for missing something because we have diverted 
resources. That is why we are questioning the ICE budget, 
because it does not reflect that these resources that might be 
dedicated to drugs, the second they have any kind of warning 
they go off of drugs; whereas if it is a drug agent who is 
assigned to that, like we are battling the Air and Marine 
Division, if it is somebody trained to be a drug agent, we know 
that the likelihood of them being diverted for anything but a 
real threat is minimal. But if it is a budget item that says 
this is for narcotics and it is not a dedicated narcotics 
person, it means that about 80 percent of the time, they get 
diverted. The boat, unless it is a clear drug boat, gets pulled 
back into harbor. So we get accounted in the drug budget--gives 
us, oh, we are flat funding drugs, but in fact, we are not. The 
same thing with air platforms. We need to know out of--your 
position is that you are going to be a strong advocate 
internally and stand up and say, look, we understand there are 
other problems but I am the drug guy and you cannot forget us 
or we are just going to get run over by the huge complex that 
is pushing the terrorism on the Defense side which are 
important and which every Member of Congress campaigns on, 
including me, but not at the expense of forgetting what is 
happening at the grassroots level as people are dying in the 
streets back home.
    Let me get into Afghanistan, and I will finish with my 
round of questioning here. I have become concerned that not 
only did we allow the biggest growth in heroin in modern times 
there on our watch, partly because this was a low priority and 
the Defense Department does not grant the link between, or has 
not at least historically granted the link between terrorism 
and drugs. They did not understand how many people were dying 
around the world apparently in their effort because it is a 
very difficult terrain. It is a very difficult country that 
nobody has ever been able to get control, including the 
Afghanis themselves under any administration in their history. 
We know that there are warlords in the north who get tied up 
with it, but most of it is down in the Kabul area that is 
critical to the support of the government.
    It is not like I have not been there, I have not talked to, 
I have not met with Kurds. I know how difficult the process is. 
But the fact is that, on our watch, it soared. We had knowledge 
of where this is and we have not sprayed it. the British did 
not spray it, and then we did not spray it. Secretary Powell 
seemed very committed, but the current Secretary seems to be 
backing up, and I have a very deep concern about that. And in 
the last 2 weeks, we have seen a whole bunch of publicity on 
the news that seems more to be praising the efforts rather than 
acknowledging that our efforts there are miserable, that they 
put several DEA agents in who are more or less trapped in 
Kabul. We holler about getting them helicopters, and then they 
put proposed second-rate Russian helicopters or other 
helicopters rather than the helicopters that we would put our 
own military in. And then act like two DEA agents are going to 
solve the heroin problem there without military support. They 
need Huey helicopters. They need soldiers to protect them 
coming in.
    We would not dream in Colombia of doing what we are doing 
in Afghanistan. And if the administration continues to defend 
not spraying, low-grade helicopters, minimal in Afghanistan, I 
do not know how I can go to the floor with a straight face or 
go down to Colombia and tell them, by the way, you have to 
spray. By the way, we need helicopters that are high-level 
helicopters. By the way, we need to have troops to support you 
on the ground so you do not get shot out of the air when you go 
to your area. Because what has worked, as you have said, in 
Colombia is having these type of things. And in Afghanistan, 
what in the world are we doing? Those people who have been 
involved in this are disturbed that other Members of Congress 
are going over there and getting a whitewash. The question is, 
is somebody in the administration going to stand up and say, 
look, you are doing better than you were a year ago, but the 
fact is, as you have said in front of our committee and I have 
said, the Taliban had a huge jump in heroin. Then for 2 years 
they basically went down because they stockpiled it. So there 
is some news story or some spray story on the national news 
that says, oh, the opium farmers in south Afghanistan decided 
not to grow this year. They just had the biggest growth in 
world history in Afghanistan. So what if they do not do it a 
year or two? We did not send any message. And we are urging 
them to do alternative crops. What we know is alternative crops 
will not work unless they see they are not going to make the 
money out of heroin. Then they will talk to us about 
alternative crops. Is anybody taking this message to the rest 
of the administration?
    If Secretary Rice and Secretary Rumsfeld both develop this 
attitude, we are in deep trouble. At least Secretary Powell was 
battling with Secretary Rumsfeld about it, and Congress has 
been battling, and we need to know where you stand, and are you 
going to speak up on our problems in Afghanistan?
    Mr. Walters. Let me start by saying, the budget that we are 
discussing includes one of the largest single 1-year increases, 
I think, in any place outside the Andes for Afghanistan. We are 
putting resources there. We have done resources in regard to 
the supplemental. The circumstance I think we also need to be 
in, as you and I have discussed this before, we may see this in 
slightly different ways. Several years ago, Afghanistan for the 
first time got its independence. Within the last year, it not 
only elected its first President but, just before that, got its 
first constitution.
    As people reported at the time, some people who voted for 
the President said, for the first time in 5,000 years, somebody 
asked the people of Afghanistan who they wanted to have govern 
them. I think we have seen the benefits of democracy here.
    We all understand that the largest single threat, I think, 
including President Karzai, but certainly the Secretary of 
State, the current Secretary of State, the Secretary of 
Defense, certainly the President and my colleagues at the White 
House, that one of the single, if not the single biggest single 
threat to the democracy in Afghanistan is opium production.
    President Karzai has sought this time, this year, to 
respond to what everybody thinks is remarkable growth from last 
year's production by organizing the leadership in the fledgling 
democracy, the Governors and some of the other leaders, to 
knock this down themselves.
    He strongly made the argument that for this year he doesn't 
want to spray it. Frankly, our ability to move and put in the 
infrastructure we have in Colombia in several months was 
probably not a very conducive situation to have a massive or 
significant spray.
    You know we are talking about over 200,000 hectares of 
poppy. We sprayed 130,000 to 140,000 hectares of coke in 
Colombia in a 12-month period last year, with a full and 
uprunning program. Poppy has to be eradicated in roughly 3 
months, and we have doubled the area.
    The ops tempo would have to be, if you look at that, six to 
eight times the rate of what you have in Colombia. You can't--
even the United States cannot drop that in 2 months. And as I 
think, because you have been involved in this, you also know, 
my experience in working with countries in the world is it 
makes an awful lot of difference whether the leader of that 
country wants to do this.
    The difference in Colombia today, while we have resources 
that are obviously critical--the single biggest difference is 
President Uribe. His goal is zero coca, zero poppy in Colombia. 
And he has aggressively pushed that. We have leaders in other 
countries that have been our partners, who are working hard in 
difficult circumstances, but they are not as committed, they 
are not as able.
    Now, for President Karzai to ask for this year, to say let 
me do it my way as the new leader of Afghanistan, let me try to 
rely on Governors--some of which I have transitioned out and 
put in my persons, some of the leaders and some of the military 
leaders that we have moved, let me put an Afghan face on this. 
Let's not have, in this new democracy, spraying, given some of 
the history of these factors in the past with Russia and/or 
Soviet Union and Afghanistan. Let me try to do this my way.
    Now, I don't know whether some of these accounts that have 
been recently written about how much progress was made--I am 
always skeptical of these things until we prove them. We have 
teams, as you may now know, looking out to see if we can verify 
this in the report term, and we will report these obviously to 
you and other Members of Congress and the American people as 
soon as we have something definitive.
    I don't believe we will have a survey until the end of the 
year, but we can see, hopefully, with enough people out there, 
what's going on. But many of us do believe that ultimately if 
you are going to eradicate on a large scale, you are going to 
need to do spray.
    I will point out, though, that when President Uribe took 
office, most of the people who gave an assessment of him, 
including not only intelligence agencies, but some people in 
Congress and then the executive branch, said he cannot do what 
he says he is going to do. And every single case, in my 
experience, everything he said he is going to do, he has done 
or he has done more than he said he was going to do.
    I don't know what the relationship will show in the history 
between President Karzai and what he says he is going to do in 
his achievements, but I do think in a new democracy, and given 
the importance of the leadership of the nation, and under the 
circumstances we face with the logistical situation of our own, 
giving him a chance to show what he could do in Afghanistan is 
a reasonable position.
    Now, on the issue of how much do U.S. agencies support 
this, as you know we are training police, military, supporting 
court systems, alternative development, infrastructure 
development, all those things are ongoing. They are in a 
difficult security environment in some places. There are other 
priorities that we have had to face over the last several years 
that have made our ability to have to triage security 
situations--and while supporting elections and other things--
not the easiest task even for the United States of America.
    I don't believe that we have made bad decisions. Now, an 
individual emphasis here or there, but I don't believe that we 
have failed to do what we could do under the circumstances. But 
that doesn't mean that we are happy with where the poppy or 
where the opium trade is. We need to go after it more 
aggressively. We are proposing--and my office has been involved 
directly in creating a strategy that includes five parts that 
we are going to try to implicate on eradication, institution 
building, alternative development, standing up, cooperation, 
domestically and internationally, that we believe will make a 
difference.
    But, again, until we get there, I am not saying it is done, 
but I do believe the path for creating a better situation not 
only for democracy, but for the drug trade, is a path that we 
can reasonably expect ourselves to follow.
    Are we impatient as you are? Of course we are. But I do 
think that while reasonable people might differ about emphasis 
or how we construct this, given where we started, given the 
primitive circumstances that we are in, given how fast this 
came back, and under the overall threats we felt and we had to 
face in the global war on terror, Afghanistan is a remarkable 
success in terms of where institutions are today. We have to 
get rid of the poppy. And President Karzai is saying--and I 
think the people around him understand that, and that, as a 
lead partner in this relationship, is critical.
    Mr. Souder. I appreciate your explanation. I believe if the 
American people knew the classified material, they would be 
outraged, and I believe as that comes out, we are going to face 
a problem here in Congress that is greater if the 
administration doesn't address directly and aggressively what 
is impossible to sit on indefinitely.
    That the fact is that we knew where supplies were, and we 
didn't attack them; that there were political reasons not to do 
so; that we don't control much of the ground now; that 
President Karzai has given us lots of words, and I have heard 
them, and I believe he is an honest man trying to do this.
    We do not take this out of President Toledo in Peru. He is 
in a teetering democracy that just had a terrible 
administration. He is in a teetering position. That democracy 
could fall. In Bolivia it could fall. In Ecuador they had seven 
Presidents in 9 years.
    And if they start looking at it and saying oh, teetering, 
we can't do this, we send messages that are going to 
reverberate around the world based on trying to treat 
Afghanistan as a different type of a country than other 
countries. I understand that; historical.
    But, hey, the heroin wasn't there when the king was there. 
It was not a democracy but it was a quasi-democracy, and it was 
a nation for a long period of time, it was not unorganized. And 
it had a period where it went chaotic. And I know it's 
difficult; it's difficult in any country.
    President Uribe did have the courage to come in, but partly 
what he saw was DMZs, like we have right now in Afghanistan, do 
not work. In fact, in Afghanistan we have 80 percent of the 
country in a DMZ like we had in Colombia, where we can't 
eradicate, where we can't go in, and that type of approach in 
Afghanistan--maybe it's too late this year.
    The British were in charge of it in the first place. We did 
a hearing on that. It may have been too late to get in this 
year. Then we ought to be going for the stockpiles, because we 
are going to spend millions and millions of dollars trying to 
interdict around the world now as a followup because we didn't 
spend it at the front end. And that's what I would say.
    Mr. Walters. I want to be clear. We don't believe it's too 
late to eradicate. In fact, we are training a centralized 
eradication force that will be in the field doing force to 
eradication, in addition to the supplements that President 
Karzai is organizing or attempting to organize with some of the 
provincial leadership. I was talking about aerial eradication 
only at this point in time. Again, I think that ultimately on 
the magnitude that we are talking about, there will be a 
considerable lead for aerial eradication.
    Mr. Souder. Manual eradication can't even begin to hit a 
tiny portion, particularly when it's not safe to go on the 
ground--and the only areas we can eradicate, and this is what 
we ran into in Colombia--is that if you only eradicate manually 
a small section of a country--and that's a country that, in 
effect, you control the ground--what they do is they just plant 
in other areas where we don't control the ground.
    The military has to get involved in this, because this is a 
shooting war. And the DEA and the State Department are not 
going to be able to do spray planes. How is the DEA going to do 
a bust in trafficking when people have all sorts of military 
weapons? That in Colombia we don't ask three DEA agents to go 
in with some State Department employee flying a plane. We have 
to have all kinds of trained units to protect them. The only 
organized force right now in Afghanistan is our military.
    And if they don't take responsibility, the world will be so 
flooded with heroin that we won't get this undone for 8 years. 
And that's what many of us in Congress who have worked on this 
issue--Congressman Dana Rohrabacher is upset, Congressman Mark 
Kirk is upset, and furthermore downplaying it on the military 
side, which is what we are trying to do right now, and saying, 
oh, it's not that great of a problem and they are going to be 
good for a year or two.
    This is what the Taliban did. And they didn't even produce 
at the level of the market to keep the price up. They have 
enough right now unless we hit the stockpiling and go 
aggressively at this, this will be a long-term set back here, 
and we don't have a year for some of this.
    Mr. Walters. Well, let me just say, I don't believe anybody 
is downplaying this. I don't believe that the President, I 
don't believe the Secretary of Defense, Secretary of State, I 
don't believe the other officials that I work with, I don't 
believe the British are downplaying it. I don't believe 
President Karzai is downplaying it. They understand it's 
central to the future and the stability and the possibilities 
of peace and stability and democracy in Afghanistan.
    The question is, what is a reasonable plan for the way 
ahead? We don't intend to drop three DEA agents anywhere and 
tell them to go do X or Y. We are creating coordinated teams 
with Afghans and U.S. personnel, some DEA, some others.
    We are working with the British, we are working with other 
countries that have responsibility for some of the areas or 
cities of Afghanistan, to integrate the enforcement against 
labs, against people that are involved in trafficking, against 
the growing cultivation, and the interdiction of the movements 
of drugs and drug-related movements of precursors and others.
    Again, we are creating an integrated plan. We are standing 
it up in an environment which is more primitive even than Iraq. 
We are trying to create this with a country that wants to have 
leadership in its own country. I think the key here is, you 
know, there are limits to the resources and the people that we 
can play to kind of take over Afghanistan.
    But also, more than that, you have to give the country back 
at some point. You know, what we have in Colombia is, 
certainly, a lot of U.S. support. But the massive effort is 
Colombians, and Colombians that we have helped train, we have 
helped support. We are on some operations with them. We do 
provide equipment.
    But basically, you know, the operation--and I think what is 
so impressive about the cooperation is how the Colombians are 
taking it to the forefront, and I think that is a difference 
from some other places and sometimes in the past, even from 
Colombia.
    President Karzai is asking to have his people in the 
forefront. We are supporting him, including the U.S. military. 
What the ops tempo is, I recognize there are some people over 
there who, you know, criticize some of the other agencies when 
they are not there; they don't do what they want, so forth. 
This is part of our job to try to manage this in reasonable 
ways.
    I don't consider the goal of making nobody unhappy 
reasonable. But you are fair to say it has grown. It is 
unacceptable, it has to be contained, it has to be shrunk for 
both reasons of drug control and reasons of controlling terror 
and providing stability in Afghanistan.
    But I disagree in the sense of, you know, people don't get 
it. We get it. We are trying to do it. We are trying to do it 
as rapidly as possible. Do some people have a view that we 
should have done more, faster, in this area? I understand that 
they do.
    I sit through these meetings. I know demands on other 
sectors and personnel here. I do not believe that it--that what 
has been done was either unjustified or unreasonable because 
somebody was heavy-handed. I know that people believe that 
defense has not been as aggressive as it could be and 
reasonable people may differ about that.
    Mr. Souder. Drugs are running 24th, or they are our 24th 
priority, I think it's a safe assumption.
    Mr. Walters. Well, except that if you look at what the 
Defense Department is doing, it is not 24th out of 24 
priorities. It has maintained its funding, it has maintained 
its support in critical areas. It has been aggressive in 
providing support for critical parts of this effort.
    The reason we are better--again, I understand what you said 
earlier, which I didn't get a chance to comment about. Now if 
we see drugs coming to the United States from South America, we 
don't stop it. Of course it's troubling. But again, let's step 
back and look at what the record is.
    We have historic seizures, massively fewer drugs are 
getting to the United States. Not a few fewer; massively fewer 
drugs are getting to the United States than ever before--
through the support of Congress, plans, and the Andean 
initiative that was started before I got here, and started 
originally in its original form during President Bush's 
father's administration--and massive increases in the 
effectiveness of interdiction. I'm sorry that some of that is 
not maybe as prominent or balanced on the Web sites of some of 
the agencies.
    But do I care more what is on the Web sites or what is not 
getting to the streets of America? The fact is, those men and 
women are saving lives every day with what they seize. Are we 
going to do better? We are all dedicated to try to do better.
    But again, I don't think it's fair to leave the impression 
that there's a massive amount that we are not getting, or it is 
staying the same, or we are declining in our effectiveness. We 
are massively more effective, not slightly more effective, 
massively more effective every year. And I believe the budget 
that we are proposing will capitalize on that project.
    Mr. Souder. Well, thank you very much for being patient 
today and taking so many questions.
    I believe that we have been more successful. I am very 
concerned about the changes proposed inside the Department of 
Homeland Security from the Shadow Wolves to the Air and Marine 
Division, to how they are using the Coast Guard that will 
reduce that effectiveness.
    I am concerned that they are lowering their emphasis and 
funds to drug intelligence. I am concerned that, given the fact 
that we have made our first progress due largely to your 
aggressive approach, that we seem to be backing away from some 
of the other things.
    I do want to say that in the budget, I very much appreciate 
your continued advocacy of the treatment programs. I thought 
there were a number of programs in there from drug courts to 
prison reentry-type things that are very important that have 
been neglected. And what we do inside the prisons, the 
President said he was going to focus on this, and he is 
beginning to address that and I hope you will continue to work 
with us on that.
    Because that is a key part, and I think you have a balanced 
approach overall, but we have some strong disagreements, and I 
am sure you are going to hear about it from a lot more 
committees than this one, and we will continue to work 
together.
    With that, thank you for being with us.
    And we will go to panel II.
    Mr. Walters. Thank you, Mr. Chairman.
    Mr. Souder. If you will stand, we in this committee, we do 
as an oversight committee----
    [Witness sworn.]
    Mr. Souder. Let the record show that the witness responded 
in the affirmative. Thank you for your patience as we work 
through this budget, and thank you for joining us today.
    Will you go ahead and give us your testimony?

 STATEMENT OF PETER REUTER, PH.D., PROFESSOR, SCHOOL OF PUBLIC 
                 POLICY, UNIVERSITY OF MARYLAND

    Mr. Reuter. Thank you very much.
    Mr. Chairman, I am pleased to be here today to speak about 
the workability of the current ONDCP budget concept. I am a 
professor at the University of Maryland and a researcher at the 
RAND Corp., but the testimony represents my own opinions, not 
those of either RAND or the university. And I hope my written 
testimony may be entered into the record.
    My testimony will not deal with the proposed 2006 drug 
budget but with how well the current ONDCP budget concepts 
serves Congress and the public as a representation of Federal 
drug policy. The agency made major procedural changes in 2003. 
I argued that ONDCP changes, if properly implemented, could 
generate a useful document for that agency. However, there 
still remains a need for ONDCP to prepare a more comprehensive 
document, fully representing what the Federal Government spends 
to reduce the Nation's drug problems, and providing the basis 
for fully informed policy decisions.
    Moreover, there were problems in the implementation of the 
new procedures that resulted in the omission of some major 
policy items that, even under the rationale offered, ought to 
be included in the budget.
    Let me start by saying that the drug budget serves a number 
of purposes. For many years, it provided just an important 
description of the Federal component of U.S. drug policy. It 
also serves more functional goals as well. Very few individual 
programs have been evaluated, and so the drug budget was often 
interpreted as providing a broad sense of how well the Federal 
Government was doing in its drug control decision. And in the 
1990's, ONDCP constructed an elaborate performance measurement 
system linked to the detailed budget.
    Until 2002, the published budget aimed to be as 
comprehensive as possible about Federal expenditures. The 
resulting figures had limitations as a tool for policy 
decisions by ONDCP.
    Consider Federal prison expenditures, which I will come 
back to, a major item in the old budget. Given the flow of 
convicted offenders from the courts, two factors determine 
these expenditures. The existing laws, mainly the mandatory 
minimum sentences for drug offenders in Federal court; and two, 
the guidelines established by the U.S. Sentencing Commission.
    If Congress wishes to spend less on incarcerating convicted 
drug offenders, it will have to reduce minimum drug sentences 
and/or direct changes in the guidelines. Neither of these are 
options for ONDCP in its budget certification and policy role. 
Plus, Bureau of Prison expenditures for incarcerating drug 
offenders did not represent a number that ONDCP could 
influence. Medicaid presents the same kind of budgeting 
programs, an entitlement program; there is little direct budget 
flexibility. The real power to address substance issues in 
Medicaid, which can be quite substantial, is through other 
policy leaders that might increase the eligibility of high-risk 
populations.
    In 2003, ONDCP developed a new budget concept. First, it 
would only include programs that reduced drug use and not those 
that only reduced the consequences of drug use.
    Second, it would not include expenditures that were buried 
in much larger and broader programs, although the director 
mentioned a few exceptions. The two distinctions proposed are 
reasonable ones. Subprograms that reduce the adverse 
consequences of drugs, such as health care for AIDS patients, 
or, indeed, prevention aimed at AIDS, in fact as a consequence 
of sharing needles, will have no effect on the level of drug 
use. This may be a worthy program, but will not have 
consequences for the targets that ONDCP uses to assess progress 
in the fight against drugs, and ONDCP is not alone in making 
this kind of distinction.
    The British Government, a sophisticated practitioner of 
drug budget arts, makes a similar distinction among programs, 
using the terms proactive and reactive. The other change had a 
more pragmatic basis; agencies with small drug-related workload 
or programs addressing a wide range of issues, beyond drugs, 
were removed from the budget unless funding could be 
reorganized and displayed to show drug funding in discrete 
decision units.
    Done properly, these two changes would allow ONDCP to focus 
its attention on programs that specifically target drug use and 
that are not buried inside larger programs, a reasonable enough 
exercise for the agencies on purposes.
    However, there were two problems. First, as implemented, 
the new budget does not seem to meet the criteria laid out for 
it. Important items that should be included are omitted.
    Second, and perhaps most important, there's a need for a 
most comprehensive budget for broader public purposes, not just 
ONDCP's decisionmaking.
    The major difference between the two budgets, the two 
budgets under the two procedures, as shown by comparisons 
provided for fiscal year 2003, is the exclusion of almost all 
costs associated with the incarceration of Federal drug 
prisoners and the exclusion of most prosecutorial expenditures.
    These amount to about $4.5 billion, according to an 
estimate by John Carnevale, former ONDCP Director. The only 
Bureau of Prison expenses included in the new budget are those 
aimed to lower drug abuse among prisoners. Thus, the Bureau 
appears by function only as a treatment agency. This seems 
consistently odd.
    Incarceration and prosecution are intended to reduce drug 
use by affecting the supply side of the market. The vast 
majority of Federal drug inmates are there for smuggling or 
selling, rather than using or possessing drugs. Incarceration 
is what makes investigation, what is included in the budget, 
effective as a method of deterring drug dealers.
    Investigation does impose its own costs on the drug 
distribution system through seizure of drugs and assets. 
However, the bulk of the penalties that Federal enforcement 
imposes on drug distributors result from incarceration rather 
than from these other penalties. Thus, if one seeks to estimate 
the total costs of Federal efforts to reduce drug use, then 
both prosecution and incarceration are being included, not just 
investigation, as is now the case.
    Moreover, the Bureau of Prisons is not an agency in which 
drug control is buried in a much broader mission. The majority 
of BOP inmates are drug offenders. Thus, even by the second of 
the tests offered by ONDCP, namely the explicitness of the drug 
control role, its expenditures could be included.
    A similar question can be raised about the exclusion of 
most prosecutorial expenditures. Prosecution precedes 
incarceration and is also a critical component of the drug 
enforcement system, but logic for including incarceration costs 
in Federal supply control efforts applies equally to 
prosecution.
    I have only had the opportunity to mention a few examples 
of the problems created by the new procedures. More are 
provided in the written testimony. The reformulated ONDCP 
budget concept, if properly implemented, can serve a useful 
purpose. It focuses the agency on what it can influence. 
However, the budget documents need to be supplemented by the 
re-creation of the old, more comprehensive budget, which can 
inform the broader debate about drug policy. This will allow 
the Republican Congress to better understand the cost of 
current policy and help them make more informed decisions about 
issues that are important that lie outside of ONDCP's 
jurisdiction.
    It would be even more useful if the budget were to include 
regular estimates of expenditures by State and local 
governments. The only estimate ever made, done for 1991, showed 
that State and local governments spent as much as the Federal 
Government, if not slightly more. Probably true today. 
Estimating these figures is complex but feasible. If Congress 
wishes to have a full understanding of drug policy in the 
Nation and the role that Federal programs play, it needs this 
broader set of figures, at least on an occasional basis.
    I am happy to answer questions.
    Mr. Souder. Thank you for your testimony.
    [The prepared statement of Mr. Reuter follows:]

    [GRAPHIC] [TIFF OMITTED] T0878.025
    
    [GRAPHIC] [TIFF OMITTED] T0878.026
    
    [GRAPHIC] [TIFF OMITTED] T0878.027
    
    [GRAPHIC] [TIFF OMITTED] T0878.028
    
    [GRAPHIC] [TIFF OMITTED] T0878.029
    
    [GRAPHIC] [TIFF OMITTED] T0878.030
    
    [GRAPHIC] [TIFF OMITTED] T0878.031
    
    [GRAPHIC] [TIFF OMITTED] T0878.032
    
    [GRAPHIC] [TIFF OMITTED] T0878.033
    
    [GRAPHIC] [TIFF OMITTED] T0878.034
    
    Mr. Souder. Mr. Cummings, do you want to start first?
    Mr. Cummings. You heard the testimony of the Director, did 
you not?
    Mr. Reuter. Yes.
    Mr. Cummings. When I asked him--and I assume that you are 
familiar with the programs of Safe and Drug-Free Schools?
    Mr. Reuter. I am.
    Mr. Cummings. You heard his comments with regard to that, 
we are now basically eliminating that program. I mean, did you 
have any opinion on that?
    Mr. Reuter. Yes. Actually, about 4 years ago, I coauthored 
a study commissioned by the Department of Education, published 
by RAND, evaluating the Safe and Drug-Free Schools Act. And I 
must say, it was fairly negative about it.
    That is to say that we felt the evidence suggested that 
money was very broadly used and not focused on drug programs, 
and many ineffective programs, certainly of unknown 
effectiveness and implausibly effective, were being funded.
    Mr. Cummings. So you would have been, I guess, generally in 
agreement with Mr. Walters with regard to--because it sounds 
like you are saying almost the same thing he said, that money 
was being spent on things that were not directly to address 
drugs used in drug prevention, and that it was very difficult 
to measure its effectiveness; that is, these funds' 
effectiveness in that program?
    Mr. Reuter. That's correct. This was money that was treated 
almost like a formula grant, and the result was that, you know, 
money was given in very small amounts to schools and the costs 
of trying to evaluate, even keep track of what the schools were 
doing with these funds, was simply unjustifiable.
    And the Clinton administration proposed a rather, as I 
remember, a rather clumsy restructuring in which there would be 
lots of evaluation. But if you take evaluation seriously, that 
really chews up a lot of money; and there was a question about 
whether you couldn't come up with a different way of 
distributing the funds that focused the funds more on high-risk 
schools, you know, the forces that tend to get money, 
distributed more evenly into almost a formula grant that go 
against that. But you could certainly design a program which 
did two things: one, focused on higher-risk schools; and, 
second, made better use of what is known about effective 
prevention programs.
    Mr. Cummings. Now, it is interesting that you said what you 
just said, because one of the things that Mr. Walters said 
during that discussion on Safe and Drug-Free Schools was that 
he found that one of the more effective uses of funds was to be 
able to, I guess for lack of a better term, search lockers and 
things of that nature, as I recall correctly. I mean, have you 
found that to be ineffective?
    Mr. Reuter. I am not the person to sort of get to what are 
effective programs. I am a reader of the literature--and not 
much to go around.
    Mr. Cummings. I understand.
    Mr. Reuter. Let me give you an example of the limits of 
what we know here.
    Mr. Cummings. OK.
    Mr. Reuter. About 4 or 5 years ago, a panel of the 
Department of Education was asked to assess what were known to 
be effective and promising prevention programs. And about 150 
providers of programs offered their curricula for judgment by 
that panel. At the end of the day, they identified nine as 
proven effectiveness and only, I think, two or three of those 
nine were broad-based drug prevention programs. Some were very 
focused, like those on steroid use amongst athletes.
    The simple truth is that we don't have much basis for 
giving schools directions about what are good programs to use. 
That isn't to say there aren't good programs, but we do not 
have an empirical basis for making judgments of effectiveness.
    Mr. Cummings. Does the restructured budget stand in the way 
of formulating sound drug policy, do you think?
    Mr. Reuter. Yes, I believe it does. I mean, not, I think, 
with the precise matter that we are talking about here. I mean, 
I think that could be fought in terms of the existing drug 
budget.
    But I think the omission of the prosecutions and 
incarceration--I mean it's terribly specific--but that's a huge 
item. We are talking about $4.5 billion there, and so 
discussing the Federal effort without including that is 
discussing sort of the--discussing the land area of the United 
States but sort of skipping Alaska. I mean, it just gives you 
the wrong view about what the Federal Government is doing.
    As I said, for ONDCP's purposes, I fully understand the 
Bureau of Prisons' decision. Prosecution was a little more 
difficult, but I understand the logic.
    But if you are then talking about Congress as a 
decisionmaker, surely it's important to know what it is that is 
being spent on the enforcement side in the full, aimed at 
reducing drug use, not merely the consequences; and the prisons 
and prosecution are a very important component of that.
    Mr. Cummings. Shall we--I'm sorry, please.
    Mr. Reuter. No, go ahead.
    Mr. Cummings. One of the things, when you mentioned 
prisons, one of the things I always found fascinating is how 
people's drug problems could become worse when they went to 
prison.
    Mr. Reuter. Prison has always been a school for worsening 
of problems. I mean, it's not that nobody gets better in 
prisons, but rehabilitation is not what prisons tend to do. 
It's more like dehabilitation. I used to do work on organized 
crime, and I was talking to a low-level Brooklyn Mafia 
associate, and he got talking about people in Chicago, and I 
said how on Earth--I mean, he had hardly gotten to Manhattan; I 
mean, this is a guy, very local. He was talking about Chicago. 
He said, well, we are in Atlanta too. And you just sort of 
realize that these are, in fact, ways of both forging networks 
and improving skills, I am afraid, that happen and have 
happened over many generations.
    Mr. Cummings. Would you have liked to have seen more money, 
or would you have liked to have seen more money going into 
prisons to address drug problems?
    Mr. Reuter. I mean, I think it's important to remember that 
the Federal Government is only a moderately important player in 
terms of prisons for drug offenders. I think the U.S. prisons 
have about 60,000 or 70,000 persons in them for drug offenses, 
probably more like 250,000 in State prisons. And if you include 
local jails, that probably adds another 150. So if you are sure 
the Federal Government should be locking up more prisoners and 
more people for drug offenses, you really want to take it in 
the context of the total incarceration that we impose on----
    Mr. Cummings. That wasn't my question.
    Mr. Reuter. I'm sorry.
    Mr. Cummings. My question was the prisoners that they do 
have.
    Mr. Reuter. Yes.
    Mr. Cummings. Should part of our policy be to make sure 
that Federal prisoners get drug treatment?
    Mr. Reuter. Oh, I'm sorry. It's not a particularly high-
risk population.
    Mr. Cummings. I guess a lot of these people on that level, 
on the Federal level, may not even be using drugs.
    Mr. Reuter. State prisons have a much higher high-risk 
population, so I have no judgment about exactly how many, and 
the Federal prisons are sort of better served than State 
prisons are. But if you had treatment resources for prisons 
available, it would be State prisons that are in most need of 
it rather than Federal prisons.
    Mr. Cummings. Let me ask you this. You heard my questions 
on Immigration and Customs Enforcement?
    Mr. Reuter. Yes.
    Mr. Cummings. Can you comment on that, please?
    Mr. Reuter. In the late eighties and early nineties, 
agencies were eager to show how much they were doing to deal 
with drugs, because it was the leading crisis at this time.
    The drug crisis--the drug problem is an important problem 
now, but clearly not seen as anything like the leading crisis. 
Agencies understandably think that other missions have higher 
priority, and I think, very plausible, that at the margins they 
divert resources that had the drug label on them to other 
things. But I certainly am in no position to judge that has 
occurred.
    Mr. Cummings. And so if you were--and I know you are not 
trying to--but if you were to give some advice to us within 
your own parameters, as people who sit here trying to use the 
taxpayers' dollars effectively and efficiently and as persons 
who see methamphetamine use destroying people, and crack 
cocaine, powder cocaine, heroin, so on and so on destroying 
people and communities, and if you were to give an opinion or 
give advice as to things we need to concentrate on as 
legislators, what would that advice be?
    Mr. Reuter. OK. I teach in a public policy school. We take 
advice seriously. That is to say, I don't particularly value my 
opinions about things. I am much more comfortable saying what 
are the consequences of choices than saying which you should 
make. There are no----
    Mr. Cummings. Well, why don't we do that? Why don't you 
give me the consequences of proceeding the way we are 
proceeding with the budget? You are familiar with the budget 
situation here.
    Mr. Reuter. I----
    Mr. Cummings. The proposed budget. And I want you to tell 
me what you think the consequences will be if we proceed down 
that road, the road we are going now, as opposed to some other 
road that might take us in the more positive direction.
    Mr. Reuter. OK.
    Mr. Cummings. How about that?
    Mr. Souder. May I add a supplement to that to reinforce 
your question?
    Mr. Cummings. Sure.
    Mr. Souder. For example, were you here for the last----
    Mr. Reuter. The whole thing, yes.
    Mr. Souder. Director Walters clearly stated over and over--
and you could hear us fencing--that he sees nationalization and 
some of these programs, as opposed to the dollars going to 
State and local agencies, giving them resources, giving the 
prosecutors, for example--there is a very particular thing; 
what would be the consequences of that substantive change?
    Mr. Reuter. You have asked me a broad question. I will take 
some liberties. The first thing is to realize that policy works 
very much at the margins of this problem.
    If you ask why marijuana use went down through the eighties 
and then up through the mid-nineties, I defy you to find a 
plausible explanation in policy. I can put on a chart, two 
lines. One is the size of the cohort of--I think it's 14 to 19-
year-olds, and the prevalence of drug use in monitoring the 
future for 12th grade, and you will be hardly able to see any 
light between them.
    There are broad demographic factors and, in fact, cultural 
factors that drive a lot of these phenomena. And what you do 
with policy is going to have fairly modest effects on broad 
things like how many kids start using drugs. Doesn't mean one 
shouldn't try, but you should not have an expectation that 
these are going to make large differences.
    The one kind of program from which you can make an 
exception, where you can say we really do have some evidence 
that we can make a difference in substantial numbers, is 
treatment. Now, in part it's because there was, until recently, 
so much hostility to drug treatment, that treatment--the 
treatment community had to, under pressure from Congress in 
particular, to constantly evaluate to show that they were able 
to make a difference in the lives both of the people they 
treated and the communities in which they operated.
    So crime is lower in Baltimore because there's been an 
expansion of drug treatment, a very large expansion of drug 
treatment in the case of Baltimore. That we can argue with 
pretty strong evidence.
    For everything else, you have impressions and contradictory 
evidence. If you ask me whether moving resources from Federal 
prosecutors to local prosecutors is going to make a difference, 
neither I nor anybody else has a basis for a judgment on that.
    And I'm sorry that I, you know, that I sound unhelpful. But 
if you ask what is the empirical base from these decisions, the 
answer is minimal. And that's why, oddly enough, treatment, you 
know, scorned and despised for so long, actually now has 
something to offer. It can provide some evidence that it makes 
a difference. It doesn't mean that enforcement can't make a 
difference, but it is really quite striking that the period 
during which enforcement has become greatly intensified as 
measured by the probability that a drug dealer, cocaine or 
heroin dealer will go to prison, over that period.
    Cocaine and heroin, at least up till 2 years ago--I haven't 
seen more recent data--has seen decline, substantial declines 
in prices, and almost no change in availability as measured by 
surveys. That's a gloomy statement. There's a description of 
what we, in fact, have observed over a long period of time: 
intensified enforcement and, in terms of drug use, minimal 
effects.
    Drug enforcement serves lots of purposes, like making 
neighborhoods safer. And it's clear that enforcement, 
particularly local enforcement, aimed at neighborhoods, has 
reduced the sort of disorder and crime around drug 
distribution. There's a lot more that goes on inside as opposed 
to outside, and Baltimore sort of really stands out in how that 
problem has not shrunk as much. In many cities it has shrunk 
very substantially. So enforcement has a lot to show for 
itself.
    But if you ask, by the indicators that are used, how, you 
know--what is the prevalence of drug use in the population, 
there's very little, you know--there's nothing to suggest that 
tougher enforcement has made a difference. And if that's the 
measure that's going to be used, as has been used in large part 
in the strategies, then enforcement is just not going to look 
very strong, and these changes are not important.
    Mr. Cummings. Let me make sure I am clear on what you just 
said. Are you saying that treatment is the one thing that seems 
to have some effect on drug usage?
    Mr. Reuter. I am saying, yes, there is a credible base of 
evidence, systematically gathered, that shows both that it 
reduces drug use and which reduces crime and other adverse 
consequences for the community. If I might just say, it isn't 
to say that there is no such thing as an effective drug 
prevention program or that law enforcement makes no difference. 
But as a researcher, I can fairly say, you know, it is an act 
of faith, an argument, not evidence, that tougher enforcement, 
in fact, reduces drug use in American cities.
    Mr. Cummings. Well, I can tell you that in Baltimore what 
we found, there came a time, in change of administrations, when 
our current mayor, to his credit, Mr. Chairman, got drug 
dealers off the corners. And they just basically disappeared.
    But then you go to other parts of the city, and it seems as 
if they have been sort of--if you had a circle and they were 
all around in a circle, and all inside, that they had been 
pushed to more or less the center of the circle, you could see 
them on the outside. And so--but yet still, the crime 
continued, the problems continued.
    But one of the things that I do find--and I am just 
listening to what you are saying, and then I want to hook it up 
with the ONDCP--is that when they--although the crimes seemed 
to stay pretty steady, but there's a community in Baltimore 
that has successfully gone through treatment, and it is truly a 
broad community.
    Sometimes I go to speak before people who have dealt with 
addiction, and they talk about being clean for 10 years, 5 
years or whatever. And it is a large community and one that 
helped--they help each other, you know. If one happened to end 
to be a barber, they go to that barber. They will end up in a 
certain church, and it's actually--it's a very strong 
community. And it's just a shame that people have to go through 
that process to get there.
    I guess where I am going here is that, you know--so you are 
saying that no matter what we do, you don't see how we can 
attach success to any kind of enforcement?
    Mr. Reuter. I want to be very careful about this.
    Mr. Cummings. I want you to be.
    Mr. Reuter. Right. The principal outcome measure that is 
used--and the chairman certainly in his opening statement 
referred to this--the principal measure that has been used for 
the success of drug policy in this country is use--
predominantly use in schools, but probably use in the household 
population.
    I am saying that there is no evidence in favor and a good 
deal of evidence that contradicts the proposition that tougher 
enforcement--and enforcement has by most measures, by most 
measures, gotten very much tougher over the course of the 
1990's and has had substantial effects on drug use.
    Looking at the marijuana chart over there that was there. I 
mean, during the period of the nineties, in which marijuana use 
amongst youth went up very substantially, incarceration for 
drug-selling offenses went up just as dramatically. And 
marijuana possession arrests went up very substantially during 
that period, much faster than drug use amongst youth, marijuana 
use amongst youth. Marijuana use amongst adults declined during 
that period. But we have seen a very persistent ratcheting up 
of enforcement over a long period of time and seen pretty 
stable drug use in the general population.
    I think of enforcement as playing an absolutely critical 
role at the local level. And, you know, there are lots of 
success stories there, you know, success stories that even 
research isn't going to--I mean, success stories are often 
stories people tell. But success stories that, you know, when 
you go out and measure, they really did accomplish what they 
said they did.
    But if what you are after is reducing drug use in the 
general population, then tougher enforcement seems an 
implausible way of making a great deal of progress.
    And in Washington, in front of Congress, it's hard to say 
this, but policy is in many respects quite marginal.
    Mr. Cummings. Thank you.
    Mr. Souder. Let me say, first, I appreciate your comments. 
As you are well aware from my earlier comments, we couldn't 
have a more comprehensive disagreement about what happened in 
the early days of the Clinton administration, when you were an 
advisor in the Clinton administration, and an interpretation of 
those results.
    I have to say with all due fairness, I don't think I have 
ever agreed with a RAND study, as you call it, with narcotics. 
But I believe that you do a very good job of articulating some 
of the key debate points, and you have raised them around the 
budget. And that doesn't mean just because I don't agree with 
all the conclusions that--trying to go through this process and 
sort through the challenges you have raised.
    You have raised a very critical point as we look at what 
even inside--if we do drug abuse prevention inside the prisons. 
When we are locking up people and we Federalize the enforcement 
question, we go up the chain, more often the dealers, not the 
users, and therefore we need to look at where our dollars go 
for treatment. I thought that was a very insightful comment 
that I haven't really heard in the debate.
    I think that we can play a couple of figures--liars, 
liars--figure here, in how we cut the charts and how we treat 
lag effects.
    Mr. Reuter. Oh, yes.
    Mr. Souder. Because, of course, when drug use goes up, 
arrests are going to go up. And then when the people become 
incarcerated, they are not there using the drugs, because they 
are in prison, and they at least aren't counted the same. 
Therefore, drug abuse is going to go down. So how you treat a 
lag effect in the charts becomes critical.
    But I would argue that--let me take an interesting 
statistic.
    Mr. Reuter. Sure.
    Mr. Souder. Since we have kept divorce rates--divorce rates 
went down for 2 years under Calvin Coolidge; I believe 1 year, 
early in the Eisenhower administration; under 2 or 3 years of 
Reagan; and they have gone down under Bush.
    So if you elect a conservative President, the divorce rates 
goes down: Obviously that is not true. They didn't pass a 
policy, because, as you said, the culture is what really drives 
it, not the public policy.
    The question, however, is how much do the signals that 
public officials send and the laws that they pass also have an 
interactive relationship in defining the culture? If you, in 
doing your research presume that isn't true, or just say look, 
this was a cultural change, and it's a hard-to-measure change, 
which is driving which? But clearly there's a symbiotic 
relationship.
    And there is also for every trend, a counter-trend, so that 
there is also the result that when incarcerations go up, the 
next generation says, hey, I don't want to go to jail, and 
therefore they change their behavior, so you are measuring that 
as a cultural change about their attitude toward marijuana, 
when in fact it may have been an enforcement change with the 
delayed effect.
    Those are the types of difficulties as we go through these 
kinds of numbers.
    Mr. Reuter. I appreciate that you have laid on the table 
about five topics on which I give long talks, and I will not 
try to deal with all five of them, and certainly not at length.
    Let me just say, pick out a couple--the effects of 
incarceration on measured drug use is sort of an intriguing 
topic. I mean, the incarcerated population--I am just sort of 
going to give you a rough figure--I think probably there are 
700,000 more drug users locked up now than there were in 1990. 
So, just a rough figure.
    And you say, well, if you talk about a few million--if you 
talk about 2.5 million to 3 million cocaine users, which is 
chronic cocaine users--which is a conventional estimate now--
and about 1 million heroin users--that's, what, 3, 3.5 million 
of that, most of the 700,000 that are locked up as chronic drug 
users using cocaine and heroin, it clearly has made a 
difference to the estimates.
    Even if you figure that in, it's still true that for 
heroin, the existing estimates suggest that there has been a 
decline in the number of chronic heroin users. I mean, there's 
always been--for some years there's been a concern that we are 
at the beginning of a new heroin epidemic, because heroin is so 
much cheaper and more potent than it was certainly in the mid-
eighties. And what is striking is that there is very little 
evidence. Take that away, the evidence is that there's been 
very little initiation into heroin use.
    And the problem is a problem of an aging cohort of people 
who used heroin and cocaine when they looked glamorous and they 
were popular, certainly with heroin but almost as certainly 
with cocaine. There's been very little initiation.
    Mr. Souder. But isn't that almost a commercial for the fact 
that maybe our Drug-Free Schools programs have had more of an 
impact than we thought? Maybe all of the arrests on TV had more 
of an impact than we thought. Maybe the TV news story showing 
people who have committed different murders or have blown up 
the Dawson family have had an impact, and that maybe this is 
bad stuff, and it affected the cultural attitude? I mean, how 
do you----
    Mr. Reuter. Fair enough. The big declines in household use 
of cocaine occurred, you know, really in the mid-eighties, in 
the--by 1985, certainly 1988, the use rates were way down.
    And most of the tough enforcement really has come after 
that. And I think it's a tough story to tell that somehow it 
was knowing that tough enforcement was coming that led people 
in the mid-eighties already to stop getting involved in 
cocaine.
    A much more reasonable story, an epidemiologic story, is 
the reputation of cocaine changed dramatically and the tragic 
deaths of Len Bias and Don Rogers probably had huge 
consequences. You can certainly see a sharp break in monitoring 
the future that was taken after their deaths. And cocaine, 
which had been a glamorous drug and famous, and Time magazine 
said some nice things about it in 1980 or 1982, it became seen 
as dangerous--as a dangerous drug, no longer glamorous, even 
clearly with heroin.
    That it seems to me is much more plausibly what drove down 
the rates and has kept them down. I mean, cocaine and heroin 
have become very cheap by historic standards, dramatically 
cheaper than they used to be. They seem quite widely available. 
There has not been an upsurge in the use. Neither of us can 
really make, you know, a strong empirically grounded, sort of 
microempirically grounded case. But I would argue it's much 
more plausible.
    Mr. Souder. I fundamentally agree with your point that 
those had a bigger impact, but I would argue it's a symbiotic 
relationship. I don't argue many cocaine addicts say, oh, I 
could go to prison, therefore I am not going to do cocaine. But 
I believe it is a cultural effect of watching what happened 
with Len Bias, followed by then stronger laws on incarceration.
    Also, because you did say that while it might not affect 
drug use, it makes the streets safer, which is, in fact, what 
is behind much of the drug arrests; it is not trying to help 
the individual. That is what we need to do more of in 
treatment. We don't have a real disagreement on treatment, 
prison reentry programs here, and this type of thing.
    The question is that really the law enforcement part is to 
make the streets safer, to make people safer, to try to break 
the chain of other people being exposed to it the first time by 
locking up the dealers. There's other types of goals other than 
just getting a person off of drug abuse. But even, I would 
argue, that there's more of a symbiotic relationship. I 
wouldn't disagree on what the lead is. The lead is cultural. 
The question is, what does public policy do to reinforce our--
--
    Mr. Reuter. Could I be positive for one moment? I am mostly 
skeptical. A close colleague of mine, Mark Kleiman, has for 15 
years been arguing for a policy that I think is really still 
the cleverest idea of the last 15 years about drugs, which has 
the simple name of Coerced Abstinence.
    And the notion is simply that anybody on pretrial, you 
know, pretrial release, probational parole--and we are talking 
about 4.5 to 5 million people are in that condition, it may 
actually be higher--be subject to regular monitoring of their 
drug use and graduated sanctions.
    You know the first time you test positive, you know, spend 
the afternoon in court, you know, watching what happens. The 
second time you spend two nights in jail. You know, the 
fourth--you know, it's an idea which is obviously reasonable. 
The few evaluations that have been done have been very positive 
about it. It is surprising how many people, given the right 
incentive, even if they have long careers of addiction, are 
able with those incentives----
    Mr. Souder. Isn't that what a drug court does?
    Mr. Reuter. Well, drug courts handle a small population. 
You hear about 1,600 drug courts. If you ask how many people 
are going through that system----
    Mr. Souder. Yes, but now you are talking about the numbers. 
What I am asking is----
    Mr. Reuter. Drug courts.
    Mr. Souder. It's a similar concept.
    Mr. Reuter. It's a similar concept, but I mean----
    Mr. Souder. Narrowly applied.
    Mr. Reuter. It is narrowly applied, it can be much more 
routinized. The Pretrial Services Agency in this city certainly 
did it for a while.
    And it is--I mean, you were talking about in substance how 
to use the correction system both to reduce crime and to reduce 
drug abuse. And this Coerced Abstinence is a very large 
population. If you do estimates of what share are chronic 
heroin and cocaine users in this--one of these conditions, 
pretrial release, probational parole, you know, it's--you know, 
about half or a third to a half of all cocaine and heroin is 
probably consumed by people in those states.
    And those are programs which are difficult to implement 
only sort of because they cross sectors of the criminal justice 
system, you know, probation; and, you know, probation has to 
then deal with corrections, has to deal with drug treatment and 
so on. And there's been sort of resistance, not because anyone 
is against the program, but just because it's difficult to 
implement.
    At times certainly in the previous administration, there 
was some ritual endorsement of it, but it sort of never has 
taken off. If I had to say do I have one thing to offer that I 
think congressional appropriators could pay attention to, I 
would say getting Coerced Abstinence--which has been tried more 
in Maryland than any other State--would really have the 
potential to make a difference in a way that brings enforcement 
and treatment together in a constructive fashion.
    Mr. Souder. Thank you. Any other comments?
    Mr. Cummings. No, I don't have anything else. But thank you 
very much.
    Mr. Souder. Thank you for your patience. It was a long 
afternoon.
    Mr. Reuter. It was, but it was a--I have to say. It was a 
fascinating exchange between you and Director Walters.
    Mr. Souder. Thank you very much.
    With that, the subcommittee stands adjourned.
    [Whereupon, at 5:35 p.m., the subcommittee was adjourned.]
    [Additional information submitted for the hearing record 
follows:]

[GRAPHIC] [TIFF OMITTED] T0878.035

[GRAPHIC] [TIFF OMITTED] T0878.036

[GRAPHIC] [TIFF OMITTED] T0878.037

[GRAPHIC] [TIFF OMITTED] T0878.038

[GRAPHIC] [TIFF OMITTED] T0878.039

[GRAPHIC] [TIFF OMITTED] T0878.040

[GRAPHIC] [TIFF OMITTED] T0878.041

[GRAPHIC] [TIFF OMITTED] T0878.042

[GRAPHIC] [TIFF OMITTED] T0878.043

[GRAPHIC] [TIFF OMITTED] T0878.044

[GRAPHIC] [TIFF OMITTED] T0878.045

[GRAPHIC] [TIFF OMITTED] T0878.046

[GRAPHIC] [TIFF OMITTED] T0878.047

[GRAPHIC] [TIFF OMITTED] T0878.048

[GRAPHIC] [TIFF OMITTED] T0878.049

[GRAPHIC] [TIFF OMITTED] T0878.050

[GRAPHIC] [TIFF OMITTED] T0878.051

[GRAPHIC] [TIFF OMITTED] T0878.052

[GRAPHIC] [TIFF OMITTED] T0878.053

[GRAPHIC] [TIFF OMITTED] T0878.054

[GRAPHIC] [TIFF OMITTED] T0878.055

[GRAPHIC] [TIFF OMITTED] T0878.056

[GRAPHIC] [TIFF OMITTED] T0878.057

[GRAPHIC] [TIFF OMITTED] T0878.058

[GRAPHIC] [TIFF OMITTED] T0878.059

[GRAPHIC] [TIFF OMITTED] T0878.060

[GRAPHIC] [TIFF OMITTED] T0878.061

[GRAPHIC] [TIFF OMITTED] T0878.062

[GRAPHIC] [TIFF OMITTED] T0878.063

[GRAPHIC] [TIFF OMITTED] T0878.064

[GRAPHIC] [TIFF OMITTED] T0878.065

[GRAPHIC] [TIFF OMITTED] T0878.066

[GRAPHIC] [TIFF OMITTED] T0878.067

[GRAPHIC] [TIFF OMITTED] T0878.068

[GRAPHIC] [TIFF OMITTED] T0878.069

                                 <all>

</pre></body></html>
